<html>
<title> - AVIATION DELAYS AND CONSUMER ISSUES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                   AVIATION DELAYS AND CONSUMER ISSUES

=======================================================================


                               (110-111)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 9, 2008

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                   U.S. GOVERNMENT PRINTING OFFICE
41-946 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin               ROBERT E. LATTA, Ohio
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey

                                  (ii)



                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

BOB FILNER, California               THOMAS E. PETRI, Wisconsin
LEONARD L. BOSWELL, Iowa             HOWARD COBLE, North Carolina
RICK LARSEN, Washington              JOHN J. DUNCAN, Jr., Tennessee
RUSS CARNAHAN, Missouri              VERNON J. EHLERS, Michigan
JOHN T. SALAZAR, Colorado            STEVEN C. LaTOURETTE, Ohio
DANIEL LIPINSKI, Illinois            FRANK A. LoBIONDO, New Jersey
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               ROBIN HAYES, North Carolina
BRUCE L. BRALEY, Iowa                SAM GRAVES, Missouri
HARRY E. MITCHELL, Arizona           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York, Vice Chair   SHELLEY MOORE CAPITO, West 
STEVE KAGEN, Wisconsin               Virginia
STEVE COHEN, Tennessee               JIM GERLACH, Pennsylvania
NICK J. RAHALL, II, West Virginia    MARIO DIAZ-BALART, Florida
PETER A. DeFAZIO, Oregon             CHARLES W. DENT, Pennsylvania
ELEANOR HOLMES NORTON, District of   TED POE, Texas
Columbia                             DAVID G. REICHERT, Washington
CORRINE BROWN, Florida               CONNIE MACK, Florida
EDDIE BERNICE JOHNSON, Texas         JOHN R. `RANDY' KUHL, Jr., New 
ELLEN O. TAUSCHER, California        York
TIM HOLDEN, Pennsylvania             LYNN A WESTMORELAND, Georgia
MICHAEL E. CAPUANO, Massachusetts    MARY FALLIN, Oklahoma
DORIS O. MATSUI, California          VERN BUCHANAN, Florida
MAZIE K. HIRONO, Hawaii              JOHN L. MICA, Florida
LAURA A. RICHARDSON, California        (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Gribbin, D.J., General Counsel, Office of the Secretary, U.S. 
  Department of Transportation...................................    13
Hanni, Kate, Executive Director, Coalition for Airline 
  Passengers' Rights, Health and Safety..........................    13
May, James C., President and CEO, Air Transport Association, 
  accompanied by Gary Edwards, Director, Flight Control and Chief 
  Dispatcher, Delta Airlines.....................................    13
Principato, Gregory, President, Airports Council International 
  North America..................................................    13
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation..............................................    13

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    49
Costello, Hon. Jerry F., of Illinois.............................    50
Johnson, Hon. Eddie Bernice, of Texas............................    56
Mitchell, Hon. Harry E., of Arizona..............................    64
Oberstar, Hon. James L., of Minnesota............................    67
Salazar, Hon. John T., of Colorado...............................    69

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Gribbin, D.J.....................................................    71
Hanni, Kate......................................................    83
May, James C.....................................................    99
Principato, Gregory..............................................   136
Scovel, III, Hon. Calvin L.......................................   148

                       SUBMISSIONS FOR THE RECORD

Mica, Hon. John L., a Representative in Congress from the State 
  of Florida, letter to Senator Lautenberg and Senator Menendez..    61
May, James C., President and CEO, Air Transport Association:

  responses to questions from the Subcommittee...................   104
  ``Use of the National Airspace System,'' Federal Aviation 
    Administration, Report Number: CR-2008-028, date issued: 
    March 3, 2008................................................   108
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation, responses to questions from the Subcommittee   186

                        ADDITIONS TO THE RECORD

National Business Aviation Association, Inc., Ed Bolen, President 
  and CEO, letter to Hon. Calvin L. Scovel, Inspector General, 
  U.S. Department of Transportation..............................   192
National Business Travel Association, Bill Connors, Executive 
  Director and Chief Operating Officer, written statement........   193

[GRAPHIC] [TIFF OMITTED] 41946.001

[GRAPHIC] [TIFF OMITTED] 41946.002

[GRAPHIC] [TIFF OMITTED] 41946.003

[GRAPHIC] [TIFF OMITTED] 41946.004

[GRAPHIC] [TIFF OMITTED] 41946.005

[GRAPHIC] [TIFF OMITTED] 41946.006

[GRAPHIC] [TIFF OMITTED] 41946.007


             HEARING ON AVIATION DELAYS AND CONSUMER ISSUES

                              ----------                              


                        Wednesday, April 9, 2008

                  House of Representatives,
    Committee on Transportation and Infrastructure,
                                  Subcommittee on Aviation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Jerry 
F. Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order.
    The Chair would ask all Members, staff and everyone to turn 
electronic devices off or on vibrate.
    The Subcommittee is meeting today to hear testimony on 
Aviation Delays and Consumer Issues. I will give a brief 
opening statement, call on the Ranking Member, Mr. Petri, to 
give his statement or remarks, introduce our witnesses and then 
proceed with testimony.
    I thank everyone for being here today to our Subcommittee 
hearing on Aviation Delays and Consumer Issues. This hearing is 
in response to the record high delays the traveling public 
endured during the summer of 2007 and is the fourth in a series 
of hearings on airline consumer protection.
    In 2007, the traveling public saw firsthand the serious 
problems that our current system has with congestion and delays 
which, at times, has led to a breakdown in customer service. 
Delayed flights affected 20 percent more passengers during the 
summer of 2007 compared to the previous summer of 2006. In 
addition, the number of airports with arrival delay rates 
greater than 30 percent increased by 189 percent. Further, the 
average delay lasted about one hour.
    On our September 26th, 2007 hearing on delays, I requested 
that the Department of Transportation Inspector General prepare 
an after-action report on what happened last summer as well as 
review progress by the Department of Transportation, the FAA, 
airlines and airports to implement policies to improve customer 
service and to minimize delays.
    The IG is here this afternoon to report their findings to 
us. These findings will provide the important information into 
what the traveling public can expect during the 2008 summer 
travel season.
    H.R. 2881, the FAA Reauthorization Act of 2007, passed the 
House on September 20th, 2007. It addresses consumer protection 
and congestion and delay reductions including a mandate that 
air carriers and airports create emergency contingency plans 
that are approved and enforced by the Department of 
Transportation; schedule reduction meetings if aircraft 
operations exceed hourly rates and are, at best, adversely 
affecting national or regional airspace; create an advisory 
committee for aviation consumer issues; install an 800 consumer 
protection hot line; and provide a number of other provisions 
to protect consumers.
    In addition, it provides for increased penalties for 
airlines, airports and those who violate the consumer 
protections in H.R. 2881.
    I am very disappointed, I think as everyone in this room is 
today, that the Senate has not acted on the FAA reauthorization 
that is pending before the other body. We continue to urge our 
friends in the Senate to pass a bill so that we can get into 
conference and get a final reauthorization bill for the FAA to 
have consumer protection issues in that final legislation.
    In November of 2007, after the House passed H.R. 2881 in 
the Aviation Subcommittee, this Subcommittee held three 
hearings on delays and consumer issues.
    Finally, President Bush and Secretary Peters decided that 
it was time to address consumer protection, aviation congestion 
and delays. Their solution was to basically take a number of 
provisions out of our House bill and to implement those 
provisions, including an emergency contingency plan for 
airlines and airports. I am interested in hearing from the 
Department of Transportation today on how implementation of 
these initiatives is going.
    Next, I am also interested in hearing the progress made by 
the Department of Transportation's New York Aviation Rulemaking 
Committee including which of the 77 recommendations the 
Secretary will implement in the immediate future and near term 
for the Summer, 2008 travel season.
    In 2007, the New York area airports contributed 36 percent 
of the tarmac delays of an hour or more. These disruptions, of 
course, rippled throughout the Country, causing system-wide 
delays all over the Country.
    While the airlines and airports have made some progress in 
terms of coordinating efforts, much more needs to be done and 
as customers are still experiencing long onboard delays. In 
2007, there was a 41 percent increase on onboard tarmac delays 
of 5 hours or more.
    Let me repeat that again. In 2007, there was a 41 percent 
increase in onboard tarmac delays of 5 hours or more compared 
to the previous year of 2006.
    With that, I again want to thank our witnesses for being 
here today. I look forward to hearing their testimony.
    Before I recognize the distinguished Ranking Member, Mr. 
Petri, for his opening statement, I would ask unanimous consent 
to allow two weeks for all Members to revise and extend their 
remarks and to permit the submission of additional statements 
and materials by Members and witnesses. Without objection, so 
ordered.
    The Chair now recognizes the Ranking Member, Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman.
    I am pleased to welcome our panel of witnesses here today 
and particularly Calvin Scovel who has become a regular, having 
been before the Full Committee last week and here on a number 
of other occasions.
    Passengers, as our Chairman has noted, are angry and 
frustrated. Airlines are laboring under increasing costs and 
congestion, both on the ground and in the air, and the costs 
have reached unprecedented heights so far as fuel is concerned.
    Out of the last few weeks, we have seen hundreds of flights 
canceled, including more today as airlines conduct safety 
audits on our aging fleet, causing even more delays and 
inconvenience to the traveling public. Two thousand seven was 
another rough year for air passengers and airlines, and it 
continues as we speak.
    Last year, air travel was up again. In fact, according to 
the Bureau of Transportation Statistics, the total number of 
passengers enplaned in 2007 was 3 percent higher than it was in 
2006. With an increase of 20 million passengers in the system, 
the on-time arrival rate for 2007 was 73 percent. Though this 
is roughly on a par with the preceding year, it clearly does 
not make for a pleasant travel experience for anyone involved 
in the delays.
    In November of last year, the Department of Transportation 
announced it would put in place initiatives to deal with the 
coming holiday travel season. Despite the best efforts of the 
Administration, the December, 2007 on-time arrival rate for 
airlines slipped nearly 7 percentage points from 2006 down to 
64 percent on-time arrival.
    We all understand that weather is the wildcard factor in 
aviation, and I believe that reform needs to take place within 
the aviation system. We are witnessing a system in desperate 
need of new advanced technologies in the air and increased 
capacity on the ground. Government and industry have tried to 
make changes to improve airline performance within the system 
for years, and it undoubtedly needs refining.
    Clearly, the FAA realizes this, and that is why they are 
undertaking the immense task of transitioning to a new air 
traffic control system, NextGen. However, that will not become 
fully operational, if it in fact stays on schedule, for another 
15 years or so, and we simply can't wait that long.
    New initiatives undertaken by the stakeholders to address 
this dilemma sooner rather than later are critical to getting 
out of this problem so that we may prevent aviation travel 
woes.
    I am interested in hearing from both the Government and 
industry witnesses on the initiatives that they have 
implemented since our last hearing on this topic, and I am also 
interested in hearing exactly what impact they predict these 
efforts will have on the traveling public this summer.
    Lack of a long-term FAA bill is only further exacerbating 
the situation. It becomes increasingly difficult for airports 
to undertake projects when they are forced to operate on 
extensions that provide only 75 percent of funding. These are 
long-term expensive projects that require thorough planning 
and, when it is unclear whether funding will be available, 
airports find themselves in an almost untenable situation.
    Passenger rights initiatives are also in need of being 
strengthened. We worked in a bipartisan manner on a number of 
passenger rights provisions in the House FAA bill. These 
include provisions that will require airports and airlines to 
be prepared to care for passengers who are experiencing long 
ground delays. The Senate needs to act now and move a 
comprehensive bill.
    I suppose the good news in all of this, if there is any, is 
that the FAA, airports and airlines are working to address the 
problem, and we in Congress must do our part in turn.
    This hearing keeps attention focused on the issue, and for 
that I am appreciative.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    Mr. Costello. I thank the Ranking Member, Mr. Petri, and 
the Chair now recognizes the gentleman from Wisconsin, Mr. 
Kagen.
    Mr. Kagen. Thank you, Mr. Chairman, and thank you, Ranking 
Member Petri, for your opening remarks and for your service to 
this Nation and to our Committee.
    I look forward to hearing some definitive answers to how 
those of you in the industry who are still in business are 
going to meet the needs and expectations of the traveling 
public, not just the traveling Congresspeople but the traveling 
public.
    Earlier today, I had a phone call from one of my 
constituents who, for the past 36 hours, has been stranded in 
Columbus, Ohio, bumped and waiting and waiting for a flight as 
a standby traveler.
    I am interested to hear how you are going to offer the 
lowest rates possible in a competitive marketplace, how you are 
going to meet your business needs of being profitable where 
energy costs are soaring, how you are going to deliver one's 
bags on time and in the right city, how you are going to 
provide prompt ticket refunds and meet all the customers' 
essential needs during long air travel as things begin to 
unwind, also how you are going to ensure customer service from 
code sharing partners. These are some of the highlights I am 
looking forward to hearing some definitive answers either today 
or in writing afterwards.
    I am certainly interested, as everyone in the Country is, 
in seeing a profitable airline industry and in finding ways in 
which Government can work with your industry to make things 
possible to be profitable and also to have a customer that is 
enjoying the experience of traveling in the air once again.
    I dare say that all of us are at the age where we remember 
those half or one-third flights when we could stretch out in 
the back of the plane and have a three-across seat. It doesn't 
exist any longer as the capacity has gone down and the demand 
has soared.
    So I yield back my time and look forward to hearing some of 
these solutions and how we can move forward together.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the Ranking Member of the Full Committee, Mr. Mica.
    Mr. Mica. Thank you. I thank you for yielding.
    The title of this hearing--I commend the Chairman and 
Ranking Member--is Airline Delays and Consumer Issues. The bad 
news, folks, is it isn't going to get any better. It is 
probably going to get a lot worse. Industry is now wracked by 
soaring fuel prices.
    I have identified part of the problem and part of the 
problem, well, the biggest problem is Congress.
    If we look at, first, the issue of delays, most of the 
delays--we have had reports before the Committee--deal from the 
New York airspace area and they, in turn, those delays pyramid 
across the system. In the very best of situations, we can only 
land at JFK, Newark or LaGuardia so many planes per hour in the 
very optimal weather conditions. When weather goes south and 
you see that as one of the major reasons for delay, then the 
system starts to deteriorate.
    The irony of all of this is you need somebody in charge to 
make decisions to move forward. The airspace in New York is 
basically equivalent to what our highway system was going into 
New York in the 1960s. For the last 10 years, we have been 
trying to do an airspace redesign there.
    I have been there countless times when I chaired the 
Aviation Subcommittee, meeting in Members' districts from 
Connecticut to Philadelphia and all in between, and we just 
about reached a decision. Now I have two Senators, the New 
Jersey Senators, Lautenberg and Menendez, have put a hold on an 
FAA Administrator.
    Well, folks, I hate to tell you, but it is hard enough to 
get anything done when we have an Administrator, let alone when 
we have no Administrator. We have had no FAA administrator 
since September.
    The reason that they cite, we will put this in the record. 
I have their letter. Their top reason is airspace redesign. 
They are holding up Mr. Sturgill, the President's appointee. So 
what they do, in fact, is revert FAA to a system that we had 
when we had five administrators in a period of a limited number 
of years, and we changed the system to a five-year term that 
transcended a presidential term.
    We had a Democrat FAA Administrator. We had a Republican. 
Now they are holding up appointment because of airspace 
redesign which we have been debating and working on for 10 
years and it hasn't been adjusted for almost, well, for over 3 
decades.
    So, if anyone thinks that we are going to get any 
resolution of delays, they are smoking the funny weed. It is 
just absolutely unbelievable if you think you are going to get 
other resolution.
    Now everybody puts their stock in NextGen. We have had the 
Next Generation airspace, air traffic control. We have had them 
in here.
    The best estimate I have heard is that is going to improve 
things 5 to 6 percent as far as dealing with congestion because 
you can only space the planes so close together in an area.
    You can only land so many planes on a runway in New York, 
LaGuardia, JFK and even if we add in the latest addition 
upstream, Stewart, yes. Still, just do the math with the 
numbers of flights, the projected number of flights. It isn't 
going to work.
    Then a lot of Next Generation and the things that we need 
to get done with FAA are in the FAA bill, and where is the FAA 
bill? It is wandering around in the Senate. It has passed the 
House.
    So, folks, if you think this is going to get better, hang 
on. It is going to get a lot worse: Nobody in charge, people 
obstructing the progress we need to move the system and stop 
the delays.
    Eighteen seconds to conclude.
    [Laughter.]
    Mr. Costello. The Chair would be happy to give you two 
additional seconds to round it off.
    [Laughter.]
    Mr. Mica. Well, I think, Mr. Chairman, you can tell I am 
not happy, but I want you to know too. All these things that 
are happening with the airlines as far as inspection, safety, 
all of that, none of that happened when I was Chairman of this 
Subcommittee.
    [Laughter.]
    Mr. Costello. I will keep that in mind the next time I am 
so generous with your time, Mr. Mica.
    Mr. Coble. Mr. Chairman, do you want to take his words 
down?
    Mr. Costello. The Chair now recognizes the gentlelady from 
Texas, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman and Mr. 
Petri, the Ranking Member, for holding this fourth in a series 
of hearings on the issue of airline customer protection.
    As I have stated before, I am certain that all of us can 
empathize with today's subject matter. We have a lot of 
problems that the airlines are not really responsible for, and 
you just heard a little bit of it from Mr. Mica.
    I have been stranded on tarmacs. I have had luggage lost 
while traveling both domestically and abroad. When I have felt 
the customer service rendered to me fell below expectations, I 
made sure I registered those complaints, and that was my 
satisfaction.
    It is no surprise that most of our Nation's air carriers 
are struggling to remain afloat financially. Now, while that is 
not a reason for them to have services that people feel are 
inferior, it does have some to do with some of the delays right 
now with the planes our for American Airlines. It will cause 
some inconvenience.
    The industry understands consumers have a choice, and the 
industry also understands the numbers. By 2015, it is projected 
that 1 billion passengers will board planes domestically each 
year. So, obviously, a carrier's loyalty base within this 
enormous market will be largely dependent upon how well 
customers are treated today.
    I would like to emphasize today's subject matter can 
clearly relate to frustration and consumers who have 
experienced customer service nightmares on our Nation's 
airlines.
    I can tell you, as a frequent flyer, that I would much 
rather be sitting somewhere on a plane on a tarmac than to be 
in the air during the storms that they have in Texas. North 
Texas has fast-moving thunderstorms that occur throughout the 
year that bring aviation operations to a halt, and it can be 
done very quickly. That includes Dallas-Fort Worth 
International Airport and Littlefield.
    In spite of these incidents, our Nation's airlines should 
continue to strive toward the implementation of sustainability 
of exemplary service, but I know that often they cannot. 
Sometimes their surprise is as great as ours when it is 
according to weather. We are not quite sure when the weather 
will clear enough to move. We don't know where we are line.
    All of that makes a difference, and we have very antiquated 
air traffic control technology and fewer than what we need, air 
traffic controllers.
    So, as a former business owner, I, of all people, 
understand that mistakes are made from time when rendering a 
service are costly. I am also aware that when mistakes do 
arise, competent and capable customer service really has no 
rival. Furthermore, when mistakes are made, there is no 
substitute for a sincere apology and a demonstrable willingness 
to show the customer that you intend to correct the wrong as 
soon as possible, and hopefully it won't happen again.
    As I close, I want to align myself with the recommendations 
that the Department of Transportation Inspector General will 
elaborate on within his upcoming testimony: The airlines must 
refocus their efforts to improve customer service. The 
Department should take a more active role in airline customer 
service. The airlines must overcome challenges in mitigating 
extraordinary flight disruptions.
    I believe that I can fully support these recommendations, 
Mr. Chairman. I am not sure that I could give my support to any 
codification of a passengers' bill of rights.
    Thank you.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the gentleman from North Carolina, Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman. I won't take the five 
minutes.
    It is good to have you all with us, especially Mr. May. I 
mention him because I have known him longer than the rest of 
you.
    Mr. Chairman and Ranking Member Petri, we have broached 
this subject before. Not unlike many members of the flying 
public, I wish our air transportation system did not have to 
confront these challenges. Delays frustrate me as much as the 
next guy, and I do acknowledge the obstacles that have led us 
to this current situation.
    You may remember, Mr. Chairman, at one of our hearings last 
year, I shared with you a conversation I had with a constituent 
who told me that he would rather submit to a dentist performing 
a root canal rather than set foot in an airport. Well, that 
doesn't speak well for anybody, and I know it doesn't make you 
airport folks happy. By the way, he didn't like root canals to 
begin with.
    But let me just say this, Mr. Chairman. At the November 
hearing, at the time, a variety of measures had been 
implemented to accommodate the increased demand in air travel 
over the holidays. They included efforts to board flights 
earlier that were fully booked to ensure on-time departures, 
reserving seats to accommodate passengers who encounter 
problems and providing additional automated machines to secure 
areas to re-book passengers.
    I would be interested to know if those are still being 
implemented and to what effectiveness they are being realized.
    Mr. Chairman, with that, I yield back my 18 seconds.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentlelady from Hawaii, Ms. Hirono.
    Ms. Hirono. Thank you, Mr. Chairman. I would like to thank 
you and Ranking Member Petri for this series of hearings on 
customer service.
    However, with all of the upheavals in the industry, while 
customer service is very important, I also think that in the 
airline industry that we really should pay some attention to 
economic viability issues. Coming from Hawaii, particularly 
with the ceasing of the passenger service operations very 
precipitously by Aloha Airlines, leaving literally thousands 
and thousands of people stranded practically and then with ATA 
following close of ceasing all their Hawaii operations, it is 
very clear that the airlines are being buffeted by all kinds of 
external factors that are impinging on their ability to 
complete effectively.
    So I hope that as we look at the customer service issues, 
which I think are related to the ability of the airlines trying 
to compete in this environment, perhaps we could spend some 
time looking at the economic viability issues of this industry, 
something that is really, really important to Hawaii and I 
would say all across the Country and indeed throughout the 
world.
    I yield back my time.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the gentleman from Iowa, Mr. Boswell.
    Mr. Boswell. Just very short, as you know, Mr. Chairman, 
yourself, all of us on this up here, we travel a lot and our 
constituents that travel a lot see us because we are usually 
leaving and departing from the same place. There is a lot of 
unhappiness out there. So you are fully aware of that, I am 
sure.
    They are starting to put big pressures upon us. So be aware 
of that.
    Secondly, before I yield back, Mr. Chairman, I had a lot of 
follow-up on those same reasons on the air safety. The last 
hearing that you had in the Full Committee and so on, which I 
applaud you for that too, but I am still hearing problems that 
we didn't get discussed there to include such statements as 
shortcuts by FAA on training and different things that are 
going on that are concerns.
    So we will talk about that, not today because of this 
schedule, but it is a concern. We have to address it.
    With that, I yield back so we can get to the job at hand. 
Thank you.
    Mr. Costello. I thank the gentleman for his brief remarks, 
and the Chair recognizes the gentlelady from California, Ms. 
Richardson.
    Ms. Richardson. Thank you, Mr. Chairman. I would like to 
also thank you and Ranking Member Petri for holding this 
important hearing, as has been said by my colleagues.
    I represent California's 37th Congressional District which 
includes both the Long Beach International Airport and the 
Compton-Woodley Airport that are both there. Aviation is a 
vital economic engine in my district. It employs thousands of 
people and delivers a tremendous amount of goods to our region.
    While I commend the airline industry for their record-
setting pace of 769 million domestic and international 
passengers, we would be really shortsighted in not 
acknowledging the alarm feeling that we equally have that 
another record was set and established in the number of flight 
cancellations and delays.
    Concrete steps must be taken in order to increase on-time 
flight performance, enhance airline passenger protections and 
decrease the number of cancellations fueling consumer 
discontent. In the attempts to respond to the passengers' 
demands, competitive and innovative approaches should be create 
and implemented in order to decrease these growing margins of 
errors.
    Assuring the American people that commercial aviation is 
reliable should not just be a requirement of the individuals 
that fly but to our Nation's economic livelihood as well.
    I am going to share with you a personal story, knowing that 
we were having this hearing today. This is not rhetoric. This 
is not Members of Congress showing emotion and being 
frustrated. This is real life experiences that the American 
people are facing.
    Last Friday, when I left here, I was supposed to be on a 
flight. That flight was an hour late. I think we are already up 
to about 85 percent of the time, all of the flights that I have 
taken have been late this year, since me coming to Congress on 
September 4th of 2007.
    The other thing that was further frustrating is when I was 
coming back. On Monday morning, I was scheduled to be on a 
flight at 7:59. The passengers were not advised at what time 
the flight was going to be rescheduled. It just showed that the 
flight was delayed.
    To me, that is completely unacceptable because passengers 
should have an opportunity. If that particular carrier is not 
going to be able to go out, a passenger should be able to make 
a reservation with someone else.
    It wasn't until 30 minutes prior to when that flight was 
supposed to leave, that finally a notice came out, saying: 
service delay; see the customer service agent.
    At that point, we were told a decision would be made at 
1:00 p.m. Now, mind you, this is 7:30 in the morning, and most 
people got up at 5:00 in the morning to get to the airport, and 
we were told that the flight would possibly be rescheduled at 
4:00 p.m. that afternoon. That cannot be tolerated.
    What was particularly frustrating is that many of us missed 
an opportunity to take another flight at 8:45. Had we properly 
known, customers could have adjusted. It was only because I was 
coming here on the East Coast, that I had staff that was 
already here, that they could reschedule me on the 9:20 flight.
    So I am lucky. I feel I got the lucky green ticket, and I 
am on the 9:20 flight. Lo and behold, that flight leaves over 
an hour late. So I spent from 6:00 in the morning until finally 
arriving here at almost 5:00 p.m., making a travel from the 
East Coast. That cannot be continued to be tolerated.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the gentleman from Illinois, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I would like to thank Chairman Costello for holding this 
hearing today and for Chairman Costello's and Full Committee 
Chairman Oberstar's leadership on including passenger 
protections in the FAA Reauthorization Bill.
    I am a strong supporter of a passenger bill of rights and 
glad that we are having this hearing today again. It is 
unfortunate we have to do it but the continued problems that we 
face right now in the flying public.
    As someone who flies weekly, I certainly know the 
frustration. Ms. Richardson's story, I could repeat probably 
many stories along those lines. I am not going to start down 
that road right now, but we all know that there are problems 
out there.
    The Aviation Institute's annual survey that just came out, 
showing complaints are up 60 percent and 1 in 4 flights are 
delayed, this is just unacceptable.
    Unfortunately, we really do not have a choice. I mean you 
look at it and you say, well, it is a free market in air 
travel. Unfortunately, there are limited choices. I think more 
needs to be done to help to make air travel better for 
Americans today.
    I look forward to hearing from the witnesses. So I will 
stop right here, and I will wait until the question period, but 
I think that this is a very important issue today.
    I, again, thank the Chairman and Ranking Member for holding 
this hearing.
    Mr. Costello. The Chair thanks the gentleman and now 
recognized the gentleman from Tennessee, Mr. Cohen.
    Mr. Cohen. Thank you, Mr. Chairman and Ranking Member 
Petri.
    I am pleased to be here today to receive testimony from 
this panel.
    Memphis is the home of the hub of Northwest Airlines and, 
unfortunately, not the home of the National Collegiate Athletic 
Association's Men's Basketball Champion, but we were close. We 
are happy to be a hub city, and Northwest has been a good 
employer and helped put us on the map even though we could have 
had a better map if we had been the NCAA's Men's Basketball 
Champions.
    We also have Pinnacle Airlines in our city. So we are very 
airline dependent, not to mention another airline that you 
might have heard of that doesn't take passengers but takes a 
few packages which absolutely, positively delivers on time, 
Federal Express.
    I probably get as many calls complaining about delays on 
airline flights and the way the airlines handle the passengers 
as any other issue, and it is a serious issue. I know it is 
difficult with so many people and the flying public increasing.
    We did some things in the FAA Reauthorization Act that if 
the Senate would have responded and passed the bill and worked 
with the House and passed a bill, maybe we would have some of 
those recommendations in place.
    But there are areas that recently Ms. Richardson mentioned, 
and I had a similar situation. Congressman Berry and 
Congressman Taylor and I were all on a plane to come up here, 
and we missed three votes each, which is more than half the 
votes I have missed since I have been here, because the plane 
was delayed.
    There were mechanical problems. Nobody wants to get on a 
plane with mechanical problems, but the problem was they 
couldn't get attendants for the flight because it had been 
canceled. I guess with the contract the other people couldn't 
spend an extra two hours.
    It seems like the airlines ought to have some way in that 
situation to have some labor policy where they pay the 
attendants more money or have some backup crew to where 90 or 
100 passengers don't wait 2 hours, some of whom miss important 
assignments, because they can't get 4 people to be flight 
attendants.
    Somehow they could get those flight attendants, 
particularly in a hub city, and accommodate the passengers 
rather than the passengers having to wait and the attendants be 
found from a Florida flight. They found some people in from 
Florida. They were off a Florida flight.
    Sometimes the airlines don't seem to be handling the 
personnel as well as they could. Maybe if they had some 
additional monies for them or incentives for them to work 
extra, then passengers wouldn't be inconvenienced, but that is 
part of why there needs to be a passenger bill of rights. Maybe 
there needs to be something better for the employees.
    We have had some problems with the pilots in their 
negotiations in Memphis, and there have been issues. But the 
flight attendants, I guess, is something that needs to be 
worked out, so they can have a backup staff or something so 
that folks wouldn't be inconvenienced.
    But, I appreciate your coming.
    We are proud to have both airlines in our city as 
headquartered in our city, and they employ a lot of people, and 
we are very pleased.
    Thank you, Mr. Chairman.
    Mr. Costello. I thank the gentleman from Tennessee, and at 
this time the Chair would recognize the witnesses. Again, we 
thank you for being here. Let me introduce the entire panel.
    We would ask each of you to summarize your testimony. We 
have your written testimony, of course, in the record. 
Summarize your testimony in five minutes or under, and we will 
have an opportunity then to have the Members ask questions.
    The first witness is the Honorable Calvin Scovel who is the 
Inspector General with the U.S. Department of Transportation, 
who has testified before this Subcommittee many, many times;
    Mr. D.J. Gribbin, who is the General Counsel for the Office 
of the Secretary for the U.S. Department of Transportation;
    Mr. Gregory Principato, who is the President of the 
Airports Council International North America;
    Mr. James May, the President and CEO of the Air Transport 
Association, accompanied by Mr. Gary Edwards, the Director of 
Flight Control and Chief Dispatcher of Delta Airlines;
    And, Ms. Kate Hanni, the Executive Director, Coalition for 
Airline Passengers' Rights, Health and Safety.
    Before I call on our first witness to testify, I would ask 
the distinguished Chairman of the Full Committee if he has 
remarks that he would like to make.
    Mr. Oberstar. Thank you, Mr. Chairman.
    I am sorry to be delayed getting here. I am always on other 
Committee business, but this is an important hearing, airline 
delays and consumer issues. We have visited it many times over 
the last 20 years.
    We have refrained from making major legislative adjustments 
but frequently counseled airlines that their contract of 
carriage is the most important relationship between the air 
carrier and the air traveler, that the role of the Department 
of Transportation and of the FAA is to oversee that that 
contract of carriage is being enforced, carried out, respected 
by the airlines.
    After the experience in Detroit several years ago in the 
snowstorm, we thought airlines had learned a lesson, and I 
counseled against widespread sweeping changes in law. We ought 
to rely on the airlines to come up with a passenger bill of 
rights and to carry it out, to enforce it and to show the 
traveling public they are, in fact, doing that.
    Then after that JetBlue didn't learn from the Northwest 
Airlines experience, we said, well, we will give you another 
lease on life.
    But public patience is running short, and Members of 
Congress who travel frequently not only experience those delays 
but also hear from their constituents time and time again.
    In fact, I received a letter just last week, in the wake of 
our FAA hearing on safety, from a retired major airline 
executive who said, yes, just re-regulate the whole industry.
    I hear a voice over here. Were Mr. Lipinski still here, the 
other, the senior Mr. Lipinski, I think he would be saying the 
same thing.
    It is a cautionary note that I offer, that the leash is a 
very short one.
    We have a bill we have passed through the House. If the 
Senate acted on it, we would be in conference. I think, in 
conference, we probably would come up with something 
substantially more far-reaching than we put in our bill. I 
think we struck the right balance.
    In the aftermath of September 11, one-fifth of the fleet 
was taken out of service. Older version aircraft were traded 
in, parked in the desert. Airlines have tried to bring in 
newer, more fuel-efficient aircraft into the fleet, and we see 
some consolidation in the industry.
    But what we have seen is load factors the highest they have 
been in decades, yields higher than at any time since September 
11 and even before that time and an industry that is now being 
compared to the pre-1970 rail passenger industry. It has lost 
its way and lost its touch with its passengers.
    It is not my saying. It is what I hear from travelers. It 
is what my colleagues hear. I can't pass through the House 
floor without each week one, two or three from both sides of 
the aisle saying: When are we going to re-regulate the airlines 
and fix these problems?
    I am a firm believer. I sat way down over there during the 
deregulation legislation in this Committee and voted for it 
with mixed feelings. It has continued to generate $6.5 billion 
a year in savings for air travelers compared to pre-
deregulation fares, but the margin of satisfaction is 
diminishing, and I think the airlines have to take that into 
account.
    We will hear testimony today on specifics of it.
    Just one final observation, Mr. Chairman and colleagues, in 
the aftermath of our hearing last week on aviation safety 
issues and even before we held the hearing when FAA got wind 
that this hearing was to be held, it was amazing how the agency 
swung into action, imposed a $10.2 million fine on Southwest 
Airlines, relocated a principal maintenance inspector, stepped 
up its inspections and how, and at that witness table last 
week, we had not only contradictory testimony but testimony 
that might be perjury.
    We have seen the whole 777 fleet of one carrier pulled down 
for further inspections, 200 MD-80s taken out of service, 
another section of the airline fleet taken out for further 
inspections--actions that should be done in the ordinary course 
of safety inspection.
    Deadlines that were missed. Airworthiness directives that 
weren't followed. As one of the witnesses said so well, those 
air worthiness directives were written in blood. When 132 
people died because of an uncommanded rudder control in 
Aliquippa, Pennsylvania, an air worthiness directive was issued 
in the aftermath that said: You fix these and you inspect these 
aircraft and you take this action.
    When a carrier allowed its aircraft to fly beyond the 
deadlines, they put 200,000 people at risk. That is not 
acceptable.
    Now we are seeing the fallout is coming as the industry 
realizes they have to correct their course.
    I have news: We are going to stay on this course. Safety is 
the hallmark of the FAA, and we are going to make sure it 
remains or becomes again the gold standard for the world.
    Thank you.
    Mr. Costello. I thank the Chairman, and the Chair now 
recognizes Mr. Scovel.

  TESTIMONY OF THE HONORABLE CALVIN L. SCOVEL, III, INSPECTOR 
   GENERAL, U.S. DEPARTMENT OF TRANSPORTATION; D.J. GRIBBIN, 
 GENERAL COUNSEL, OFFICE OF THE SECRETARY, U.S. DEPARTMENT OF 
TRANSPORTATION; GREGORY PRINCIPATO, PRESIDENT, AIRPORTS COUNCIL 
 INTERNATIONAL NORTH AMERICA; JAMES C. MAY, PRESIDENT AND CEO, 
    AIR TRANSPORT ASSOCIATION, ACCOMPANIED BY GARY EDWARDS, 
DIRECTOR, FLIGHT CONTROL AND CHIEF DISPATCHER, DELTA AIRLINES; 
   AND KATE HANNI, EXECUTIVE DIRECTOR, COALITION FOR AIRLINE 
             PASSENGERS' RIGHTS, HEALTH AND SAFETY

    Mr. Scovel. Chairman Oberstar, Chairman Costello, Ranking 
Member Petri and Members of the Subcommittee, we appreciate the 
opportunity to discuss efforts underway by the Department, FAA, 
and various stakeholders to improve customer service and reduce 
delays. Secretary Peters has made these issues a top priority 
within the Department.
    Our statement will address the three areas the Chairman 
asked us to report on today.
    First, an after-action analysis of the summer of 2007: Our 
work shows that multiple factors contributed to gridlock and 
record-breaking delays last summer. DOT ranked late-arriving 
aircraft as the number one cause of delays with carrier-caused 
delays and weather ranked number two and three respectively.
    However, these categories lack considerable precision. To 
get a better understanding of the root causes, we focused on 15 
airports with the worst delays last summer. In addition to the 
usual causes such as weather, other factors included:
    Airspace bottlenecks in New York; this accounted for more 
than one-third of delays system-wide.
    Airline scheduling; for example, 6 of the 15 airports had 
flights scheduled either at or over capacity during good 
weather, including JFK. As a result, even a small increase in 
operations or weather problems had cascading effects system-
wide.
    Excessive aircraft spacing on final approach added to the 
gridlock in the New York area and beyond and made aircraft 
arrival rates at JFK and Newark unreliable.
    Whether this summer will reach the discomfort level of last 
year depends on a number of factors or wildcards. They include:
    First, weather conditions as well as the impacts of a 
weakening economy and higher fuel prices on the industry. Three 
carriers stopped flying just last week.
    Second, DOT, the airlines, and airports have taken steps to 
address the action items we outlined at the hearing last fall. 
However, many of the initiatives will not be in place by this 
summer. The key will be follow-through, execution, and 
implementation.
    In response to our recommendations, the Department has 
issued two proposed rulemakings to establish specific targets 
for airlines to reduce chronically delayed or canceled flights, 
disclose on-time performance on internet sites and resume self-
audits of customer service plans. These rules will not be 
finalized in time for the summer.
    The Department also established a national task force to 
develop model contingency plans to minimize the impact of long 
on-board delays. The task force will report its results later 
this summer.
    The airlines have taken some steps, but more needs to be 
done. Eleven of twelve ATA member airlines have defined an 
extended period of time for meeting passengers' essential needs 
during long on-board delays. The trigger thresholds for meeting 
passengers' essential needs vary from an hour and a half to 
three hours on departure.
    Eleven of twelve ATA airlines have now set a time limit on 
delay durations before deplaning passengers or elevating the 
situation to senior managers for resolution. Again, the 
thresholds for deplaning passengers vary significantly.
    Only four of the twelve ATA airlines have completely 
satisfied our recommendation to establish specific targets to 
reduce chronically delayed or canceled flights.
    Most importantly, in our view, the airlines need to publish 
to consumers their commitments to improve customer service in 
their customer service plans and contracts of carriage.
    Airports have taken steps to improve air travelers' 
experience, including a task force to address problems in the 
New York area and conducting workshops. Further actions are 
needed.
    We reviewed 20 airports and only 3 have established 
procedures to proactively monitor long on-board delays that 
involve contacting the airline to request a plan of action. In 
our view, all airports need to do so.
    Finally, actions are needed this year and next to mitigate 
congestion. Given that NextGen is a long-term effort, several 
actions are needed.
    FAA needs to negotiate plans with the Department of Defense 
for using special use airspace to open up additional lanes of 
traffic. FAA needs to continue to address concerns about 
controller productivity and excess spacing on final approach 
while simultaneously training large numbers of new controllers. 
FAA needs to further expand the number of its airspace flow 
program locations to help reduce delays.
    Airlines should attempt to level out the arrival and 
departure banks at hubs. Airlines have successfully done so in 
the past, which reduced congestion.
    BTS, the Bureau of Transportation Statistics, and the 
Department need to analyze delay and cancellation data 
submitted by the airlines. This would provide Congress with a 
better understanding of the causes of delays and cancellations 
and solution sets needed.
    That concludes my statement, Mr. Chairman. I would be 
pleased to answer your questions or questions posed by other 
Members of the Subcommittee.
    Mr. Costello. The Chair thanks you, Mr. Scovel, and now 
recognizes Mr. Gribbin.
    Mr. Gribbin. Thank you, Mr. Chairman, Members of the 
Committee. Thank you for this opportunity to update you on 
initiatives taken by the Department to address airline delays 
and consumer protection or, as Jim Oberstar phrased it, to 
increase the margin of satisfaction.
    We are all too familiar with the litany of statistics that 
demonstrate that action is needed on behalf of air travelers. 
One of the most compelling statistics is that last year almost 
two million flights did not land on time because they were 
delayed, canceled or diverted.
    Over a year ago, the Administration identified the need to 
respond to the growing consumer impacts of aviation system 
delays. We launched a two-pronged attack on the problem: We are 
working to improve consumer relations and consumer protections 
and we are working to resolve the systemic failures that result 
in delayed flights, missed connections and lost baggage.
    The Department has undertaken a number of consumer-specific 
measures. We have three current rulemakings that would help 
passengers know what to expect when they book a flight, allow 
us to step up oversight of chronically delayed flights and 
enhance protections for consumers who are bumped, experience 
delays or have complaints against the airlines.
    Secretary Peters, as the Inspector General mentioned, has 
also formed a Tarmac Delay Task Force to develop model 
contingency plans for airlines and airports.
    In addition to improving consumer protections, we are also 
working to address the underlying cause of much of the misery 
attributed to air travel, and that is congestion and delays. 
Flight delay problems including cancellations and missed 
connections are the number one air traveler complaint, as 
Representative Richardson illustrated.
    Along these lines, the Department has done a number of 
activities, including the following: We have overseen the 
construction of 13 new runways allowing for 1.6 million 
additional operations.
    We have reduced delays to implementation of New York 
airspace redesign.
    We have capped operations at JFK and proposed capping 
operations at Newark.
    We have appointed a new aviation czar.
    We have worked on accelerating the deployment of NextGen 
technology.
    We have established the New York Aviation Rulemaking 
Committee.
    We have proposed amendments to our rates and charges policy 
to give airports more tools to manage congestion at the local 
level.
    And, by summer's end, we will have completed all 17 of the 
operational improvements called for by the ATA and the Port 
Authority to address congestion in New York.
    These operations improvements will be helpful, but they 
will not come close to providing the additional capacity needed 
to meet demand in New York. It is a bit like using a pillowcase 
as a parachute. It is helpful, but you still have a bit of a 
disaster at the end. Really, more needs to be done.
    The cause of congestion at our busiest airports is not a 
mystery. It is a classic case of tragedy of the commons. Free 
access and significant demand for a finite resource ultimately 
dooms the resource to over-exploitation.
    Our current structure dooms airports. In fact, last summer, 
some of the airlines recognized the dynamic and asked us to 
intervene and cap the New York City airports because the 
airlines understood and understand that their incentives are to 
over-schedule congested airports.
    But to really address congestion, we have a choice between 
two fundamentally different approaches: administrative remedies 
or market-based solutions. We believe that moving towards a 
market-based system will reduce delays and contribute to an 
improved flying experience for air travelers.
    Instituting administrative remedies, like caps, is an 
effective but not an efficient way to reduce delays. Caps limit 
capacity, stifle innovation and block competition. As a result, 
passengers get poorer service and pay higher fares. In 
addition, imposition of caps in the manner proposed by the 
airlines would result in a massive wealth transfer from the 
American public to the airlines.
    For the better part of the last century, the world has 
engaged in an exhaustive debate on whether it is more efficient 
for governments to manage systems to meet consumer demand or 
whether management should be left to the markets. I can say 
that the results are in and that markets have won.
    Pricing balances demand with available capacity. It results 
in less congestion and more reliable schedules. Pricing sends 
better signals as to where the system needs extra capacity, and 
it can supply the revenues to add such capacity. Pricing also 
can increase the number of passengers served in an airport even 
if the number of airplanes does not increase.
    Market forces, however_and I want to make a point to 
highlight this_market forces do not address every policy 
problem with aviation congestion. Market forces do an excellent 
job of allocating resources to those who can realize the most 
economic value from that resource, but they do not allow for 
the societal value placed on certain activities such as access 
to airports by general aviation or the need for small community 
service. The Department recognizes this and will respond 
accordingly.
    Let me conclude by saying I think we all agree that the 
American public deserves the safest and most reliable air 
system possible.
    I want to thank you again for this opportunity to testify, 
and I look forward to your questions.
    Mr. Costello. The Chair thanks you, Mr. Gribbin, and 
recognizes Mr. Principato.
    Mr. Principato. Chairman Costello, Ranking Member Petri, 
thank you for allowing Airports Council International North 
America the opportunity to testify at this important hearing on 
aviation delays and consumer issues.
    Our 366 member airports enplane more than 95 percent of the 
domestic and nearly all of the international passenger and 
cargo traffic in North America, and nearly 400 aviation-related 
businesses are also members of ACI North America.
    We applaud the Subcommittee for its work on H.R. 2881 to 
provide airports the financial tools necessary to build new 
runways and terminals to meet growing airline passenger needs, 
the long-term solution to congestion and delays.
    Air travel delays and complaints are rising. DOT's most 
recent air travel consumer report, released on April 3rd, 
indicates that complaints from consumers increased 13.3 percent 
in February, 2008, over the same month one year earlier and on-
time arrival rates are down.
    While these statistics are alarming, airports are working 
aggressively to enhance air travel by improving the airport 
customer experience during lengthy airline delays.
    In January of this year, ACI North America convened an 
industry-wide workshop. The goal was to promote an exchange of 
information on providing excellent passenger care during 
extended delays and identifying new opportunities to better 
serve travelers.
    To better enhance and strengthen airport contingency plans, 
the workshop identified immediate and near-term actions to be 
undertaken on a local and national level.
    Immediate actions on a local level include coordinating 
individual airline and airport irregular operations plans to 
identify overlaps and gaps, communicate and coordinate to 
present consistent and accurate messages to both employees and 
passengers, and establish a network of stakeholder 
professionals that will develop, in advance, comprehensive 
guidelines that encompass all stakeholders' needs and ensure 
they are met.
    Near-term actions include creating an irregular ops 
committee comprised of all airport stakeholders, development of 
a unified communications plan that considers the needs of all 
service providers, employees and the traveling public, 
partnering with local media for effective broadcasting of 
messages, and enhancing airport and airline web pages as a 
means of communicating real-time events to employees and the 
traveling public.
    ACI North America is also reaching out to the FAA, TSA, CBP 
and others to explore opportunities by which Federal entities 
might enhance their operations during irregular operations, and 
we are working with ATA in doing that.
    These actions, as well as some current best practices, have 
been provided to DOT's National Contingency Plan Task Force on 
which ACI North America, as well as representatives from 
several large and small airports, are actively participating.
    Airports are taking a leadership role in identifying trends 
and patterns and recommending workable solutions for mitigating 
the impact of flight disruptions for passengers, both on the 
airplane and in the terminal.
    Additionally, ACI North America staff is assembling a list 
of solutions that have already been effectively implemented by 
airports around the Country to provide to the Task Force at its 
next meeting on April 29th.
    While airports are being proactive in finding solutions, 
the best solution to decreasing congestion and delays is to add 
additional capacity. However, in those limited situations where 
existing capacity is inadequate to meet demand and significant 
airfield capacity expansion isn't feasible, congestion 
management tools should be available to airport operators. That 
is why ACI North America supports the DOT-proposed rule 
regarding airport rates and charges.
    There is one size fits all solution and, because of the 
unique circumstance at each airport's facilities, proprietors 
of congested airports need the ability to develop programs that 
are custom fit to specific local circumstances. Additionally, 
it is very important that DOT permit congested airports to 
build reasonable exceptions in their rates and charges to 
preserve small community access.
    ACI North America also supports DOT's proposals to increase 
compensation for involuntary denied boardings as well as 
enhanced consumer protection from chronically delayed flights. 
However, given the growth of regional or feeder airlines, DOT 
should ensure that their operations are also covered by any new 
rules to ensure that passengers in both large and small 
communities have pertinent information on which to base their 
travel decisions.
    ACI North America also remains concerned that flight delays 
and cancellation rates at many small airports continue to have 
a negative effect on abilities to make connections at large 
hubs and are disruptive to passengers flying to and from 
smaller communities.
    In closing, ACI North America and its member airports thank 
you for the opportunity to share our views on this important 
matter. Increasing consumer confidence that the aviation system 
can work efficiently without extended delays and passenger 
inconvenience is important for both passengers and airlines. We 
are in this together.
    We look forward to working with you as we continue to 
address these vital passenger issues.
    Thank you.
    Mr. Costello. The Chair thanks you and now recognizes Mr. 
May.
    Mr. May. Thank you, Mr. Chairman.
    I am pleased to be accompanied today by Gary Edwards who is 
the Director of Flight Control at Delta Airlines. Gary is the 
person who is on the ground, handling all the day to day 
operations of a major airline and can answer a number of 
questions very directly from an airline's perspective. Ms. 
Richardson, for example, raised an issue that I am sure Gary 
can address.
    I would remind the Committee as we get kicked off that we 
are really talking about two separate and independent but 
related issues. One is the issue of increasing flight delays, 
and the second is customer service.
    I would make two fundamental points to start. Number one, 
airlines hate delays. It cost us $9 billion last year. Within 
the last three or four months since Christmas, five carriers 
have filed for bankruptcy and gone out of business. Frankly, 
others may well be on the edge.
    There are brutal economics in the business today. Oil is 
trading for airline purposes at about a hundred and thirty five 
to forty dollars a barrel. That is refining premium plus the 
basic cost of crude.
    No one is more interested in making sure our planes get to 
their destinations efficiently and quickly than the airlines 
are, and an airline's delay is our worst enemy.
    Secondly, we care deeply about our customers. Our customers 
are our livelihood. We are not satisfied with the status quo. 
We need to improve our customer service. We have been working 
hard to do that, and we need to continue. We cannot allow 
things to remain static, and we understand that.
    So, first part of the equation, increasing flight delays, 
numbers are up. We have all seen them. They are not where we 
want them to be. This Committee is frustrated. Passengers are 
frustrated. Airlines are frustrated.
    The real question is why are those delays up, and I think 
the answer is two-fold: number one, weather and, number two, 
air traffic control.
    It is interesting. Twenty years ago, we had been focusing 
on the Northeast, both from the older airports like LaGuardia 
to the newer airports like Stewart in Mr. Hall's district.
    Twenty years ago, we could handle, FAA could handle an 
average of 10 to 12 flights more per hour than they can today. 
You would think that with new technology the trend would be 
heading in the other direction, and it is not. It is going 
south, not north.
    At the roundtable that you held, Mr. Chairman, we spent a 
number of hours sitting around and discussing some of the 
problems with NextGen, and the biggest problem with NextGen is 
it is not NowGen, and we need to move aggressively to get that 
changed.
    I spent some time about three weeks ago with the air 
traffic controllers up in New York, and I spent time in the 
towers at Kennedy and LaGuardia and Newark. We went up to the 
TRACON in New York, and there are very serious issues and we 
need to address them directly. We need to involve the input of 
the air traffic controllers and others who are hands-on, and we 
need to, quite frankly, just get off the dime and get this 
done.
    I disagree with my good friend in the Department of 
Transportation in suggesting that we are going to have pure 
marketplace solutions or ``administrative'' solutions. I think 
there have to be air traffic solutions because at the end of 
the day it is not just concrete and, in New York, we are not 
going to lay a whole lot more concrete.
    It is the airspace and the congestion in that airspace 
provided by a minimum of 15 towered airports in that air 
traffic control system, and it is airspace that is being 
occupied not just by commercial aviation but by private 
aviation and business jets. I would like to submit for the 
record one of Mr. Scovel's best reports, Use of the National 
Airspace System, which is an IG report that just came out that 
I think helps illustrate some of the problems in New York.
    So we realize we need to do more to solve the problem. We 
are working with the FAA, the DOT and others.
    Secondly, and a bigger part of the equation, is we need to 
do a better job with customer service. When we have delays, we 
have irregular operations, when we have customers sitting on 
the ground for extraordinary periods of time, we have to treat 
them properly.
    I think we have made great strides in being able to do 
that. I know the numbers are up on some of the longer delayed 
flights, but by the same token I think our carriers have done a 
much better job of handling that.
    We continue to work on our customer service commitments. We 
have them posted on our web site or in our conditions of 
carriage. We are continuing to revise them.
    We are spending time with Mr. Scovel and the IG and working 
on the many different approaches that our friends at the DOT 
have engaged in this.
    We are doing this internally. We are under constant review 
by you and ourselves, and we know we need to do a better job of 
doing that.
    Mr. Chairman, I have run over time a little bit. I 
appreciate your indulgence. I am happy to answer questions that 
you or the other Members of the Committee might have.
    Mr. Costello. We thank you for your testimony, Mr. May.
    Mr. Edwards, I assume you do not have testimony.
    The Chair now recognizes Ms. Hanni.
    Ms. Hanni. Thank you, Chairman Costello, Chairman Oberstar, 
Members of the Committee.
    The active members of our coalition number 22,074 as of 
yesterday and growing. We are supported by U.S. PIRG, ACAP, 
Consumers Union, the Consumer Federation of America and Public 
Citizen. That totals about 52 million ticked off air travelers.
    Among many coalition activities, we now operate a state of 
the art, round the clock hot line to talk with people in real 
time who are stranded on airline flights that have baggage 
problems, airplanes decompressing in flight which just happened 
last week, pilots complaining about a lack of sleep, every 
conceivable airline issue.
    The number of planes stranded on airport tarmacs are far 
higher than reported by the airlines or DOT. Airline passengers 
are still being stranded without food, water, working 
lavatories and the passengers' option to deplane after three to 
four hours if it can be done safely. As recently as last month, 
American Airlines kept 17 aircraft on the tarmac at DFW for 
several hours beyond that airline's own non-binding 4-hour 
commitment.
    I know this because we get the phone calls from the 
passengers inside those aircraft.
    There have been many promises by the airlines about making 
progress and President Bush even got involved, directing 
Secretary Peters to address congestion and other consumer 
issues, but there has been very little permanent action. Even 
worse, the Federal courts have invalidated State passenger bill 
of rights laws on commerce and preemption grounds.
    I have testified in most of the States bringing bills, and 
the ATA's argument and the airlines' argument is that they 
would prefer Federal legislation to State legislation.
    The new DOT guidelines are, to put it mildly, adding insult 
to injury. It would let each airline decide what, if anything, 
they want to offer stranded passengers with no Federal review, 
no effective enforcement mechanism, plans for stranded 
passengers are relegated to one-sided contracts of adhesion. 
For their part, the airlines oppose even this ineffective DOT 
proposal.
    Congress has the chance to address both the passenger bill 
of rights and safety scandal by enacting H.R. 2881, the FAA 
Reauthorization Act, which passed the House last year. There is 
agreement in the House and bipartisan agreement amongst most of 
the key players in the Senate.
    The passenger bill of rights provisions can be added in 
conference as can any supplemental safety and inspection 
oversight measures. The bill already contains more funding for 
oversight and provisions relating to the dangerous off-shoring 
of inspections.
    Unless the Congress acts on some version of passenger 
rights legislation this year, the cries of frustration from the 
tens of thousands of stranded passengers will not be heard.
    The cries of thousands of people like me and my family who 
were held against our will without food, water and working 
restrooms in Austin or JFK or Philadelphia or Newark or Dallas 
or Los Angeles or Atlanta or January or a dozen other airports 
last year, all of those cries of despair will have been in 
vain.
    Mr. Chairman, the FAA has failed us, as have the airlines. 
It is now incumbent on Congress to act.
    Last week, we learned of the latest passenger issue, that 
planes were not being inspected and that safety inspections had 
succumbed to the worst kind of revolving door cronyism. News 
reports showed that the airlines literally thought they could 
use their cozy relationships with the FAA to silence 
whistleblowers. It is the kind of Katrina bureaucracy all over 
again.
    Given the frustration of airline passengers and the new 
safety scandal, I don't think voters--Democratic, Republic or 
Independent--are in any mood for kicking the can down the road. 
This has to be the can-do Congress when it comes to passengers' 
bill of rights and safety.
    Mr. Chairman, we are doing our best to urge the Senate to 
act. I have been to every Member of the Finance Committee's 
office so far this week.
    For your part, we ask that you oppose DOT's advancing its 
non-regulating regulation, just turning the issue back to the 
airlines for their voluntary actions. Congress tried that 
unsuccessfully in 1999. Fool us once, shame on you. Fool us 
twice, shame on us.
    I would be pleased to answer any questions that you might 
have.
    Mr. Costello. The Chair thanks you for your testimony, and 
we appreciate your organization and everyone else, the efforts 
they have made attempting to get our colleagues in the Senate 
to pass an FAA Reauthorization Bill.
    I have said many times, publicly and privately, to our 
colleagues over in the Senate that we don't necessarily believe 
that they have to just rubberstamp the House bill but pass a 
bill, just their version of a reauthorization bill, so we can 
get it into conference and work out our differences. I think 
the differences are slight, and they can be worked out.
    So we, again, appreciate your efforts and encourage you and 
everyone to continue to impress upon the Senate the importance 
of passing this legislation.
    Let me just inform our colleagues that we have been told 
about 3:45 to 4:00 we will have series of votes probably 
lasting anywhere from, oh, an hour and 15 to an hour and 30 
minutes. So I will proceed with questions as quickly as I can 
and get to you for your questions. I will also submit some 
questions for the record.
    Let me also say that the National Business Aviation 
Association has submitted a letter that they would like to be 
inserted in the record. At this time I would, with unanimous 
consent, insert this letter into the record, without objection.
    Mr. Scovel, one, thank you for your testimony. As I said 
earlier, you have been before us many times. We appreciate your 
hard work, and I know that we have thrown a lot of work your 
way and there is a lot more coming.
    First, let me ask you, you state in your testimony, that I 
read last evening and went through it again this morning, that 
DOT has taken a more active role in airline customer service 
issues. What additional steps has the DOT taken to improve 
oversight in this regard.
    Mr. Scovel. You are referring to customer service in 
particular, sir?
    Mr. Costello. Customer service, yes.
    Mr. Scovel. I would like to note at the outset that my 
staff, as you have correctly noted as well, has been active in 
this area now for almost 10 years. Apart from the immediate 
aftermath of 9/11, when the airline industry was in a great 
deal of turmoil, the veterans on my staff have rarely seen the 
Department, the airports, and the airlines convene together as 
they have and move as quickly as they have on a number of 
different fronts. We would like to give them all due credit for 
that.
    The Department, in our view, has moved extraordinarily fast 
and has accomplished, we think, a great deal within the legal 
restrictions that rulemaking essentially requires.
    We would commend the Department especially for including in 
its proposed rulemaking a requirement that airlines post on 
their internet sites their on-time flight performance 
information. We think that will be a great help to the 
consumer.
    We would also commend the Department for requiring airlines 
to continue or to resume the audits of their customer services 
plans. There have been a number of different areas where the 
Department has moved forward on the customer service front.
    We have good news and bad news, I think, when it comes to 
the airlines and the airports, but for the Department at this 
point, we are pleased with what they have done.
    We have our scorecards out. We want to see some of the 
results when the proposed rulemaking and the comments have all 
been returned and evaluated, and we would urge the Department 
to approach those comments and their final rulemaking progress 
in a very hard-nosed manner because the circumstances call for 
it at this point, Mr. Chairman.
    Mr. Costello. The question for the entire panel, and I 
think I can probably insert Mr. May's answer already before I 
ask the question, but the question is: Does anyone on the panel 
believe that if we do not pass, the Congress does not pass a 
passenger bill of rights or some type of consumer protection, 
that it should be left up to the airlines to manage on their 
own, that it will in fact be managed by the airlines?
    Anyone on the panel other than Mr. May want to comment?
    Mr. Gribbin. I would like to go ahead and comment on that.
    I think Ms. Hanni's comments were good, but they were 
slightly inaccurate in saying that there is no enforcement 
mechanism over what the Department has proposed in our ANPRM.
    While it is true that we have said that the airlines ought 
to decide what plans are available in the case of significant 
tarmac delays, we have also said that they have to audit those 
plans and we have the legal authority then to oversee the 
audits of those plans. So if the airlines put forth a plan and 
are not abiding by that, we do have the ability to enforce the 
airlines by that.
    That said, we do think it is the best policy that the 
airlines decide.
    Mr. Costello. Several of the issues that you have included 
in your consumer protections passenger bill of rights, whatever 
you want to title it, came directly from H.R. 2881. I would 
like you to tell us what provisions that you have included that 
are not in the House bill that was passed on September 20th.
    Mr. Gribbin. I don't have in front of me a side by side.
    Mr. Costello. Is there anything that you can name off?
    Mr. Gribbin. I can quickly run through. We have seven 
different items. It is true that there is a fair amount of 
overlap.
    Mr. Costello. Without going through all seven because we 
have limited time, we understand what provisions are in the 
House bill and we understand that many of the provisions that 
you have came from the House bill. But is there anything off 
the top of your head that you can name that is not contained in 
the legislation that we passed?
    Mr. Gribbin. Most of the provisions we have are similar to 
what was in the House bill and similar to what was in the New 
York passenger bill of rights and reflects a number of the 
passenger bill of rights that are being considered.
    I think the significant difference is the amount of 
flexibility given to airlines and the airports to develop plans 
on their own and the number of Federal employees we would have 
to hire to oversee that.
    Mr. Costello. Mr. Scovel, in your testimony, and this has 
been an issue that we have discussed in this Subcommittee 
before. You note that, and I will quote, and this is just one 
example. There are many others with other airlines that I can 
give.
    You have in your testimony: ``For example, Northwest 
Airlines has scheduled 56 departures in 1 15-minute window at 
Minneapolis-St. Paul, nearly 3 times the airport's departure 
capacity for that window.''
    Now when an airline scheduled 56 departures, 3 times the 
capacity that can be handled in that 15-minute period, what 
that means is that people will be sitting on the tarmac and 
that there will be delays, correct?
    Mr. Scovel. Absolutely correct, Mr. Chairman.
    Mr. Costello. And, we have seen that at other airports as 
well.
    I guess the reason that I bring this up is that we know 
that before we start out. We had examples that we pointed out 
to another Committee that has jurisdiction over a part of the 
FAA Reauthorization Bill, that in the New York area, where 
airlines are scheduling more flights than humanly possible to 
take off during that period of time.
    We had the air traffic controllers come in when we were 
trying to determine in the passenger bill of rights what should 
the window be. Should it be two hours? Should it be three 
hours? Which should it be?
    The air traffic controllers, when we showed them figures 
like you are demonstrating here, 56 departures in a 15-minute 
window, it is impossible to do.
    So my question, Mr. Gribbin and to you, Mr. Scovel as well 
but Mr. Gribbin in particular: When the Department of 
Transportation sees that airlines are scheduling three times as 
many flights as humanly possible to get out in that time frame, 
a 15-minute time frame, are you taking action? Are you 
negotiating with the airlines to reduce the number of scheduled 
flights that we know that will result in delays?
    Mr. Gribbin. What we do is we have our new rule on 
chronically delayed flights.
    Mr. Costello. Can you move a little closer to the mic?
    Mr. Gribbin. We have a new rule on chronically delayed 
flights that, in essence, if a flight is delayed chronically 
over a period of time of two quarters, then we penalize them. 
So that is the incentive we have for airlines not to schedule 
at a time that they know they can't meet.
    Mr. Costello. How long has that been in effect? How long 
have you been using it?
    Mr. Gribbin. It has been in effect this year. We put it 
into effect last year. So it has been in effect almost a year 
now.
    Mr. Costello. How often have you sat down and negotiated 
with airlines and said, look--to Northwest or United or whoever 
it may be--you have more flights scheduled in this 15-minute 
period than possible to take off and actually negotiated a 
reduction in flights in peak times?
    Mr. Gribbin. Well, what we do is more backward looking. We 
look at the flight data as it comes in and as flights are 
delayed, we will sit down with the airlines on a periodic basis 
and explain what data we have and make sure that it is accurate 
for what actually happened.
    The tool that we have put in place to remedy the problem, 
you addressed, is our new rates and charges policy.
    Right now, airports don't have the ability. When airlines 
come in and schedule flights all at the same time, they have no 
ability to move those flights to make it more rational to the 
public. And so, with the rates and charges policy, they could 
actually use pricing to move flights out of peak times to avoid 
that very scenario.
    In addition, we have also, as part of the ANPRM, suggested 
that, as the Inspector General mentioned, that consumers be 
told when flights are delayed.
    The problem we have right now is exactly what you pointed 
out. Airlines are scheduling. Consumers want to leave at a 
certain hour. So airlines know that, and they schedule more 
flights in that hour than could possibly leave because there is 
no mechanism to prevent them from doing that and because 
competitive pressures drive them in that direction.
    I think that the problem we have right now is not so much 
that airlines are scheduling a lot of flights in a certain 
hour. It is that we have developed a system that incentivizes 
that type of behavior and we haven't provided the tools to 
discourage it.
    Mr. Costello. But you know the problem exists and has 
existed for a long time now.
    Mr. Scovel, I wonder if you might comment.
    Let me mention as well that in our bill that we passed out 
of this Committee and out of the House, we give the Department 
of Transportation, the Secretary, the authority to sit down and 
not just negotiate with airlines as to if they have scheduled 
too many flights in a period of time that is impossible to 
achieve. They have the authority to tell the airline that you 
are going to reduce the number of flights in this peak period 
or particular time.
    Mr. Scovel, I wonder if you might comment on DOT's role in 
stepping up and taking action when it is very obvious that 
scheduling like this results in people sitting in airplanes on 
the tarmac and flights not getting off on time.
    Mr. Scovel. Mr. Chairman, as we have testified before, we 
think an informed consumer is more likely to be a satisfied 
consumer. So, if information is posted on an airline's internet 
site, that is tremendous.
    However, we think that the way the Department has 
approached chronically delayed flights leaves much to be 
desired. For years now, we have urged the Department's Office 
of Aviation Enforcement and Proceedings to proceed legally 
against airlines that have engaged, in our layman's view, in 
deceptive practices by advertising flights to take off at a 
certain time.
    We think the way the Department has set the measure of what 
constitutes a chronically delayed flight is far too narrow. 
Under the Department's rule, 200 flights per quarter, on 
average, might be labeled chronically delayed because the 
measures, according to the Department, should be any flight 
that is more than 15 minutes late 70 percent of the time. It is 
a very high bar. Only 200 flights perhaps might qualify.
    Our office has urged a lower bar that we think would more 
correctly reflect the concerns of consumers. We have urged a 
30-minute delay, certainly as a concession some to the airlines 
and airports. However, we have also urged that 40 percent of 
the time be set as the time limit to mark when a flight is 
running late. If that were to happen quarter over quarter, then 
we would hope that the Department would proceed against the 
airlines.
    Mr. Costello. Final question and then there are other 
Members who have questions, and I have a number of others that 
hopefully we will get to. If we don't, I will submit them to 
you in writing.
    Mr. Scovel, you just said that you have recommended and 
this Subcommittee knows that you have recommended to the 
Department of Transportation that they take action, legal 
action against airlines that engage in ``deceptive'' practices 
which, of course, would mean advertising flights when they know 
that they are not going to get off on time.
    Have you see the Department of Transportation take any 
action based upon your recommendation?
    Mr. Scovel. Not yet, Mr. Chairman. We are reassured by the 
Department's new emphasis on rulemaking and protection for the 
consumer, and we are hoping to see the statistics reflect this.
    Mr. Costello. How many years have you or your office, the 
Inspector General's Office, made this recommendation to the 
Department of Transportation?
    Mr. Scovel. I believe I can state four. It might be longer 
than that.
    Mr. Costello. So, for at least four years, you have been 
recommending to the Department of Transportation that they take 
legal action against airlines that engage in deceptive 
practices and, as of right now, you cannot cite an example 
where they have taken action?
    Mr. Scovel. I have been handed a note by a member of my 
staff, and I will stand corrected. Since February 2001, Mr. 
Chairman, we have been making that recommendation.
    Mr. Costello. Since February, 2001, you cannot cite one 
example where action has been taken by the Department of 
Transportation against an airline?
    Mr. Scovel. Not to my knowledge. However, we will certainly 
take that question for the record if we may and provide you 
with a detailed answer.
    Mr. Costello. In fairness, I think I should call on Mr. May 
who is here on behalf of ATA and pose both questions to you.
    Number one, Mr. May, you have heard the Inspector General 
and I have cited the example that he gives, 56 departures in a 
15-minute window. Why would an airline schedule 56 departures 
in 1 15-minute window when they know that it is impossible for 
all 56 of those flights to depart on time?
    Mr. May. I appreciate, Mr. Chairman, your turning to me in 
fairness and, in equal fairness, I cannot give you an answer to 
that. I saw that in the IG's report, and I don't have a good 
answer for it.
    Mr. Costello. I can tell you in trying to put together the 
consumer protection provision in the reauthorization bill, we 
spoke to probably everyone at this table, asking for their 
opinion on various provisions, and we spoke to a lot of people 
including the air traffic controllers. We found example after 
example where that has taken place, where an airline has 
scheduled, in this case, three times the amount of flights than 
humanly possible to take off.
    It is a major issue that the Department of Transportation 
and the airlines need to address.
    With that, I have taken far too much time.
    Mr. May. May I?
    Mr. Costello. Sure.
    Mr. May. On a second point that was raised here, Mr. 
Chairman, staff have helped me out here. In 2008, there have 
been 5 consent orders by the DOT. In 2007, there were 28 
consent orders. There were a series of fines. There is other 
recent enforcement activity.
    So there are active enforcement provisions that are being 
pursued by DOT, and I would be happy to submit this for the 
record.
    Mr. Costello. I would like that for the record and would 
like to pursue it a little more, but unfortunately I have 
others who have questions.
    With that, I would recognize the Ranking Member, Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman, and again 
thank you for holding this hearing.
    I wonder if I could just ask Mr. Gribbin to expand a little 
bit on the remedy of, I guess you call it, market-based or 
congestion-based pricing. You indicate in your written 
testimony, this was attempted or implemented at LaGuardia 
Airport for a while, but seemed to be against the rules.
    The idea that an airport would know what the capacity would 
normally be at certain times of the day, and they therefore 
could vary the price that they would charge airlines for 
scheduling flights at different times, so that if they attempt 
to over-schedule or jam in they could price them out and that 
would tend to even things out. Obviously, they would have to 
pass some of that on, and people would have to pay more, but 
that again would influence the demand for those times.
    Is that the idea, and this would make money available to 
the airports to expand if they reaped additional revenue by 
congestion pricing in that way?
    Could you explain why that it is and then I would like to 
ask other members to comment?
    Mr. Gribbin. I would be glad to.
    As the Chairman mentioned, you have a situation right now 
where competitive pressures and a number of factors lead 
airlines to, in essence, over-schedule an airport or schedule 
more flights than an airport can handle in a given period of 
time.
    The Department released a rates and charges amendment to 
our rates and charges policy to give the airports the ability 
to adjust the cost of landing fees during the course of the 
day, and those need to be revenue neutral. So while those 
traveling at peak periods may pay slightly more, those 
traveling in off-peak periods would benefit from a 
corresponding savings.
    So we think that right now the best way to manage 
congestion in airports, where you can't have expanded 
capacity--like in the New York area you really are hemmed in 
the additional amount of capacity you could add--that airports 
be given the flexibility to adjust prices during the day, 
similar to what utilities use.
    With cell phones, we have free weekends. Why? Because there 
is extra capacity. So they want to drive usage in that 
direction. Most utilities charge higher prices during peak 
times.
    So we think that exact same principle applied to airports 
does two things: One, it helps reduce congestion. But, 
secondly, it helps allow for new entrants, it encourages 
continued competition and allows for the market to work.
    Mr. Petri. That would require a change in the law to 
accomplish?
    Mr. Gribbin. That would not require a change in statute. It 
would require a change in our rates and charges policy.
    As the Inspector General mentioned, right now with 
reauthorization still pending, the Department is somewhat 
hamstrung in what we can do. And so, what we have done is we 
have pursued a number of remedies to this problem that we are 
able to do under existing law.
    This is a hearing on delays and consumer issues. All of our 
data shows that the number one consumer issue is delays. If we 
can avoid delays, if we can manage congestion, we don't end up 
in situations where people are trapped on tarmacs for hours.
    Mr. Petri. You could do it, but you have not yet thought, 
for a variety of reasons, that it made sense to do it to solve 
this problem?
    Mr. Gribbin. We have actually proposed an amendment in the 
policy. The comment period ended on the 3rd of this month. We 
are reviewing comments and then will come out with a formal 
change in our policy later this year that will then give that 
freedom to airports.
    Mr. Petri. So any comments on this proposal, Mr. May? I see 
you.
    Mr. May. I would hate to disappoint my colleague from the 
DOT by not commenting at this time because he well knows my 
views on this and those of a number of other leading legal 
scholars, including Ted Olson, who have very serious 
reservations as to whether or not the DOT enjoys the statutory 
authority to pursue this kind of congestion pricing.
    We don't think it has ever been tried in a network 
environment other than probably electricity. It certainly has 
never been tried in a network environment in aviation.
    It was used at Logan Airport at one juncture a number of 
years ago against GA to drive GA out of Logan Airport. It 
hasn't been applied to commercial scheduled operations.
    We think it is nothing short of a tax on passengers. If you 
are trying to Europe through JFK, and in your situation you 
would probably do it somewhat differently, using different hubs 
and carriers.
    But if you wanted to go to Europe through JFK, you are 
going to connect at JFK with a feeder flight that is coming in, 
a Delta flight or an American or somebody else, and you can't 
afford to go up to Stewart Air Force Base and take a 60-mile 
ride down the Hudson from Poughkeepsie to get there. So, 
effectively, the pricing that is being applied to your flight 
is going to be a tax, and you are going to still want to have 
to fly through JFK in New York to get to Europe, but you are 
going to be taxed to do that.
    No guarantees that the money ever goes to improving air 
traffic control. We don't think it has anywhere near the 
benefits of real meaningful improvements to Next Generation air 
traffic control systems, and so we have a very fundamental 
difference starting with the legality of it, going through the 
practicality of it and the history of it, just for the record.
    Mr. Principato. Congressman Petri, if I could from the 
airport perspective.
    As Mr. Gribbin indicated, it does have to be revenue 
neutral. You had talked before about making more money 
available for airports. It does not.
    I think it is important to know that airports already do 
have the ability to do a two-tier pricing. The Port Authority 
of New York and New Jersey, I think San Francisco, have minimum 
landing fees which essentially is a two-tier system. It is not 
just a weight base. So there already is a certain amount of 
authority to do this.
    In terms of the two-tier pricing, the DOT's policy is to 
clarify the current rule, not to really set something new.
    You know 56 flights in 15 minutes probably is a rational, 
short-term economic decision I guess somebody makes. A lot of 
people want to fly between 8:00 and 8:15 in the morning. So 
they will sell a lot of seats during that time. But no amount 
of NextGen or NextGen plus 10 is going to get those 56 flights 
off in those 15 minutes. It is just not going to happen.
    And so, we do need to look at some other issues: more 
capacity on the ground; obviously NextGen, NowGen, whatever you 
want to call it; and, as Mr. Gribbin has indicated, giving 
airports the flexibility through this new rates and charges 
policy to look at them, using pricing as away to move some of 
this around.
    As I said, airports already have some of this authority to 
do this. Not a lot of airports do it. Not all airports will do 
it. Most rates and charges are set in negotiations with the 
airlines. Airports and airlines work very closely together on 
this.
    So I don't foresee a flood of airports coming in and 
beating the airlines over the head with this, but it is a tool 
that can be used while we wait for that new capacity on the 
ground that you all included in the reauthorization bill. While 
we wait for NowGen, NextGen, whatever we want to call it, it is 
another tool for airports to use that address the very issue 
you are talking about.
    Mr. Costello. Thank you.
    The Chair now recognizes the gentleman from Oregon, Mr. 
DeFazio.
    Mr. DeFazio. Mr. Chairman, there were some others here 
before me. I do want to ask questions, but I will let you go 
ahead.
    Mr. Costello. The Chair now recognizes the gentlelady from 
Texas.
    The Chair now recognizes the gentleman from Tennessee.
    Mr. Cohen. Thank you, Mr. Chairman.
    Mr. May, in your testimony, you emphasize the importance of 
helping passengers caught on the tarmac during periods of 
excessive delay. How long do you believe an aircraft should 
have to wait or a passenger in an airline should have to wait 
before that aircraft is required to return to the tarmac?
    Mr. May. Required to return to the terminal or passengers 
given some right to get off?
    Mr. Cohen. Yes.
    Mr. May. Congressman, I think it is a flexible answer. 
There is no single answer. It is why we have always opposed a 
hard and fast rule.
    I think it depends on the airport. I think it depends on 
the conditions that are causing the delays. I think it depends 
on the type of aircraft, the destination. There are a number of 
different factors.
    All of our carriers, every single one of them, have set a 
time frame for decision based on their best information. I 
don't think any of those time frames for a decision exceed two 
hours, two and a half hours and almost all of them, if not all 
of them, have set hard and fast deadlines that range in the 
three hours to I think JetBlue is at five hours time frame.
    Again, it depends on the circumstances. It could well be 
that in more extreme circumstances we are actually pre-
canceling those flights before they leave the terminal because, 
quite frankly, we know we are not going to be able to get them 
out in time.
    Mr. Cohen. Mr. May, I would just submit to you that your 
perspective is that from the airline industry, which I 
understand, but there is a constant in terms of how much a 
human being can withstand. I don't care if you are in Tupelo, 
Mississippi or if you are in New York City, if you are on a 
little Cessna or if you are on a big Boeing plane. A certain 
amount of time sitting in a fuselage, not knowing what is going 
to happen, without food, fresh air, bathroom facilities, there 
is a constant.
    There must be a minimum time that a human being is not put 
under the indignities that they have been on these terrible 
delays. Now what is that minimum time from a human perspective?
    Mr. May. Congressman, I also bring a human perspective as a 
multimillion mile flyer for Delta before I took this job. So I 
understand exactly what you are saying.
    I think there is a human factor involved that is not only 
conditioned upon where you are going, what kind of an airplane 
you are in, what the weather conditions are, but also I think 
there is a condition that says I would rather get to my 
destination and suffer some delay in getting there than to have 
the plane go back to the terminal, get canceled, not be able to 
get on a connecting flight that day or the next day and lose 
that opportunity.
    Mr. Cohen. Is seven hours too long to be without a bathroom 
and water?
    Mr. May. Sure.
    Mr. Cohen. What is? There has to be a time. Five hours, is 
that too long?
    Mr. May. I think most of our carriers have said four or 
five hours is a time they need to bring back. If you lay out 
examples of seven hours, and I know they exist. I have been on 
one for nine hours in Dallas-Fort Worth, as a matter of fact, 
on American early in my career.
    So it is too long. It is not acceptable, and I think we 
have to do everything we know how to do to make sure that we 
reduce and eliminate the number of times that those occur.
    Mr. Cohen. You oppose Federal legislation to have a 
minimum?
    Mr. May. We have. We have consistently opposed a hard and 
fast time line, and the very reasons are that we are going to 
be creating more problems, untended consequences for our 
customers than not.
    I think having a rule that says you have a decision time 
frame, having a rule that says you have to have folks, based on 
your own operations, out of there after a certain decision time 
frame is an appropriate way to go.
    Mr. Cohen. Let me ask you this, and it might have been Mr. 
Gribbin who referred to it but market conditions. You are an 
advocate of market conditions, are you not?
    Mr. May. I am not an advocate of the same market conditions 
that Mr. Gribbin is.
    [Laughter.]
    Mr. Cohen. That is some inside baseball, I guess.
    If we have a merger of airlines and there is talk of Delta 
and Northwest merging, and I see Northwest is much better on 
some of these charts that Ms. Hanni has given us.
    If there is a merger, does that not make it more likely 
that we will need governmental regulation to assure that the 
public has improvements because the market will be reduced?
    Mr. May. I don't know that I would agree that one follows 
the other, Congressman.
    I mean you get Northwest in your market. They are your 
principal carrier in Memphis, and they do a terrific job there. 
If there were to be a merger, I am sure they would continue to 
do a terrific job there.
    Mr. Cohen. As long as they continue to do a terrific job 
there and not some other city, yes.
    Mr. May. I can't ever imagine Northwest not continuing to 
serve Memphis in a very robust fashion.
    Mr. Cohen. Thank you, sir. Those are good words. We still 
should have won the tournament.
    [Laughter.]
    Mr. May. But can you take solace in the fact that Tennessee 
won the ladies' tournament?
    Mr. Cohen. To be honest, no. I am from Memphis.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from North Carolina, Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Good to have all of you here.
    Mr. Scovel, you mentioned aircraft spacing may have had an 
effect on delays and congestion in New York airspace. I want to 
put a three-part question to you. In what way was it affected, 
and were aircraft spaced separately in situations where it was 
not warranted, i.e., clear weather, and, thirdly, what is the 
effect on delays in these situations?
    Mr. Scovel. Good afternoon, Mr. Coble.
    I think you are referring to excessive spacing on approach, 
which is in mentioned in our testimony today.
    Mr. Coble. Yes.
    Mr. Scovel. What we have learned in talking with 
authorities at New York most recently is that they have 
identified a practice among air traffic controllers there in 
the recent past. This practice spaces out in further distance 
the aircraft that are on final approach to their airports, a 
longer distance than is required by FAA regulations.
    Typically, on approach it is three miles. There is a little 
bit of fudge factor there. Sometimes we have been told through 
FAA and New York authorities that the distances have been 
stretched an additional two to three miles, and we have been 
told by the airlines that it may even be farther than that.
    The result is, of course, a ripple effect throughout the 
airspace, with fewer aircraft being able to land and delays 
ensuing.
    FAA has not been able to directly quantify the problem in 
any great depth to our satisfaction. However, it has provided 
us with at least one factoid, if you will, which was: this past 
February, had excessive spacing on approach not been in effect, 
FAA estimates that in one 2-hour period perhaps 22 more 
aircraft could have been brought down safely. So that is the 
result.
    To some extent, a question that needs to be examined is 
whether air traffic controllers are properly, in their eyes 
even, reacting to an emphasis by FAA on getting control over 
operational errors. On this final approach question, an 
operational error might be when an air traffic controller 
brings two airplanes too closely together in final approach, 
below the three-mile limit. Air traffic controllers then, of 
course, try to err on the side of caution and stretch out the 
aircraft under their control.
    FAA has attempted to deal with that, but clearly it is an 
area that needs more study, and in this context it is a 
practice that may feed delay and, of course, give rise to 
consumer dissatisfaction.
    Mr. Coble. As you pointed out, the ripple effect is the 
problem. One plane extending the space would be no problem, but 
when you have a dozen it is a different ball game.
    Mr. May, you heard me mention in my opening statement about 
the measures that you all implemented to address the increased 
demand during the holidays. Are those measures still being 
practiced?
    Mr. May. One of the measures that was most helpful during 
the holidays in particular is not, and that is the use of 
military airspace. I know that FAA and DOT have engaged in 
discussions with DOD to try and take advantage of the use of 
military airspace, punch a lane through off the East Coast, and 
have not yet been successful in achieving accord on that 
particular issue.
    I would hope this Committee could add some particular 
emphasis added to the need to have that in particular. When we 
get to the summer months and convective weather, it would be 
particularly helpful.
    Otherwise, I think we had a fairly smooth both Thanksgiving 
and Christmas holiday season. Easter went reasonably well, and 
so we are now approaching the summer, and we need to keep our 
eye on the ball for all of those issues.
    I would like to emphasize what Inspector General Scovel 
said on the controllers. To put a not too fine point on it, 
there has been a real dispute between FAA management and the 
controllers, and I don't think it is any great secret. To the 
extent that FAA management was enforcing operational errors to 
the letter, the controllers made a determination that they were 
going to enforce the letter of the law to the letter, and they 
spaced planes out.
    I think there is a far better working relationship with 
Hank Krakowski today and the controllers than there has been 
historically. He is a real star in our book. He is the new head 
of the ATO.
    I think the relationship he has with NATCA is particularly 
positive, and I think that there will be some real serious 
operational improvement available to us in New York. By 
bringing the controllers into the debate and the dialogue, it 
is very important.
    There is a classic example there with one of the 
operational changes for New York airspace is to add some 
additional departure points on exiting the airspace. Well, if 
you don't have enough trained controllers sitting in the TRACON 
to, if you will, catch those flights--it is a term of art that 
the controllers use--then you can add as many departure points 
as you want. It is not going to do you any good because there 
is nobody there to man that center to be able to handle those 
flights.
    I think it is the little things like that that make a big, 
big difference in productivity, in moving more and more flights 
through there. I think a lot of it is not going to yield more 
noise as a lot of constituents have, but it will just be more 
positive. Changing some of the boundaries, that sort of thing 
could make a big, big difference.
    Mr. Coble. Thank you, Mr. May.
    Mr. Chairman, I see that infamous red light. Could I ask 
one more quick question?
    Mr. Costello. Yes.
    Mr. Coble. Thank you, Mr. Chairman. I will now be brief.
    Mr. May, as you know, in the past few weeks three airlines 
have ceased operations, and one of those carriers had a 
prominent presence in my district, which of course is of 
interest to my constituents. Are your members doing anything or 
are you able to do anything to help accommodate individuals who 
had purchased flights on those airlines?
    Mr. May. We are doing what we can, Congressman Coble, to 
accommodate those, but it is a problem that runs throughout the 
industry right now. I had some relatives that were on an Aloha 
flight that we needed to get reaccommodated, and it was a 
difficult task to do that. We had to buy additional tickets and 
eventually wait for a refund to come back from the creditor 
system at Aloha.
    So it is an issue. It is one we are worried about.
    We are worried more that somebody do something or try to do 
something about the one hundred and thirty-five or forty dollar 
oil that we are paying for because there are five carriers 
since Christmas that have gone out of business. There will be 
more if something isn't done about high oil prices.
    Mr. Coble. Thank you, Mr. May.
    Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. Costello. I thank the gentleman and the gentlelady from 
California, Ms. Richardson, is recognized.
    Ms. Richardson. Yes. Thank you, Mr. Chairman.
    I just have one question, and I believe it is to Mr. 
Principato.
    My question has to do with in your testimony it states that 
airports are being proactive in assisting airlines and their 
passengers when lengthy delays occur. Can you give us more 
information on what specifically is being done?
    Mr. Principato. Last summer, when this really came to the 
fore, DFW convened a meeting of airlines and airports, got 
together to begin the process of coming up with some plans. We 
convened a similar meeting soon afterwards.
    Things like proactively working together to make sure that 
the airports and the airlines both have the same information 
about what the needs are, making sure that concessions are open 
in cases where you have lengthy delays, so what happened to Ms. 
Hanni and her family won't happen again, we hope.
    I know at one airport, they sort of opened up--maybe it is 
DFW--an automat kind of situation. Those of us who grew up in 
the Northeast remember Horn and Hardart. You walked in. You put 
in the money. You don't need somebody to sell it to you. It is 
a machine, so you get sandwiches and real food.
    Having concessionaires that would carry things like diapers 
and baby formula because those maybe aren't the normal things 
you can find in an airport at night.
    Working with the Red Cross and local pharmacies to make 
sure that people have access to prescriptions.
    Two quick examples: There was a situation at DFW a couple 
of weeks ago where there was some weather. I think it was 1,000 
people who were there overnight. Because of the great work that 
DFW has done with its airlines and everybody else and its 
concessionaires, Kate maybe can correct me on this, but I don't 
think her hot line received on real complaint about how they 
were treated that night. Things went very, very well.
    In Northern California, in early January, there was some 
really bad weather. There were hurricane force winds, if you 
remember, back in that period of time. In Fresno--Fresno, 
California--they had a plan that they worked out before 
Thanksgiving, that they put into effect when that happened.
    I brought the e-mail from Russ Widmar who is the director 
up there. They had more than 20 flights diverted to their 
airport. They are not used to having that many land all at one 
time.
    Ms. Richardson. Excuse me.
    Mr. Principato. Yes.
    Ms. Richardson. I appreciate everything that you just said. 
Part of my question was related to that. It was also related to 
what can do to assist passengers prior to even getting to the 
airport and knowing that there is a delay.
    Mr. Principato. Right.
    Ms. Richardson. Let me give you an example of what I mean, 
the scenario I just said in my opening comments. I received 
nothing on a cell phone, nothing on an e-mail, nothing on a 
text message. These are the types of the things.
    I mean you are talking about after the problem has 
occurred. I am talking about what we can do to assist 
passengers on the front end which I think is just as important, 
so why we don't do recorded phone calls.
    I remember there was a while ago when you would make a 
reservation and they would say, well, is there a number to 
contact you in case there is any issue with your reservation? I 
don't know if that is still being done, but I can tell you here 
in my office no one received a phone call, and no one has 
received a call for the six months that I have been here of any 
time when my flight has been delayed.
    Mr. Principato. Well, of course, from their point of view, 
we don't know, for example, that you are booked on a certain 
flight. So we wouldn't be able to let you know that your 
particular flight was delayed. That is really the airlines, and 
Jim may have something to add to that.
    Certainly, we are trying to work with the airlines to get 
general information out about delays and so forth, but I know 
that Jim would like to jump in.
    Mr. May. Ms. Richardson, Gary Edwards handles those 
responsibilities in part, among many other things, for Delta 
Airlines and may have a comment on that.
    Mr. Edwards. Thank you, Jim.
    Congresswoman, what we do at Delta is, well, you do sign 
up. You either get a text message to your PDA or a phone call. 
We try to get in front of situations like that. I don't know 
the instances in this situation.
    I would like to share something with the room just for a 
moment, though. It sounds like you fly once or twice a week 
and, by the Government's own statistics, you have a favorable 
experience three out of four times.
    I live it every day. Nobody is more frustrated about delays 
and cancellations than I am. I fly 1,500 times a day, 4,000 
times a day if you include my connection partners.
    I am sitting in our command center in Atlanta, watching 
this very instance we talked about, the arrival rates into New 
York. It is a clear, sunny day. Everyone is at the airport, and 
everyone is on time. Today, we are at 90 percent on time, and 
out of the blue I start getting delays. I get a ground delay 
program. Delays start cascading through the system, and there 
is no reason for it.
    The next day, with a different set of controllers on duty, 
we fly in and out of New York and there are absolutely no 
delays. Nothing is going on. It is a 90-92 percent on-time day. 
So that is the part where we in the industry are extremely 
frustrated. I am sorry, I am off the point.
    We at Delta, we have processes in place, a lot of 
automation, whether it be a viewer you can touch, if you sign 
up, if you are a frequent flyer, you get e-mails. You get it on 
your PDA. You get a text message when we know about the delays.
    If we go to the airport and the crew is doing their walk 
around and find a leak there or something that we didn't know 
about or we have, like we had Friday in Atlanta, we had two 
eyescopes go out of service unannounced when we had fog at the 
airport, one of the best airports, the best airport in the NAS, 
and we had two-hour delays that we had no idea about until it 
happened just like that.
    Ms. Richardson. Okay. My time has expired. Maybe more 
appropriately with the Inspector General, I am looking for a 
more across the board policy.
    I do not occasionally fly on your airlines. I can tell you 
with the airlines I do fly on there is not this policy because, 
as I said, for the last seven months I don't recall us getting 
any calls or any notifications of any delays. The only time we 
find out a delay is if we initiate the call.
    In terms of the airport, I am simply throwing out the idea: 
Have we thought about maybe having some screens kind of when 
you drive up and you got to the movies and you see what movies 
are playing and what time it is?
    Maybe we can get a little forward thinking as people. Many 
airports, when you are coming up, it says tune to such and such 
radio station to get an update. Maybe the radio station can be 
advising people.
    Maybe you can have some screens at the airports so people 
aren't going through parking, going through security, all of 
that when you actually know that there is a problem.
    But I would like to yield because I have extended my time.
    Mr. Costello. The Chair now recognizes the gentleman from 
Illinois, Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I will try keep this relatively brief. I know Mr. DeFazio 
there is itching to go here.
    Mr. DeFazio. Why don't you go right ahead? Make me look 
like a nice guy.
    Mr. Lipinski. I don't know if I can make you look like a 
nice guy.
    Chairman Oberstar had mentioned in his opening statement 
and talked about the Mr. Lipinski, who used to be on this 
Committee, used to talk about re-regulating the airlines. I 
just wanted to make clear I am not there yet.
    I think, though, first of all, we have a problem if we are 
just talking about two ends of the spectrum saying, well, we 
either have a free market or we have complete regulation of the 
airlines. Our system is supposed to work where we are somewhere 
in the middle.
    First of all, I don't think there has been enough of an 
effort, and I think the passenger bill of rights or whatever 
you want to call it that we put here in the House FAA 
Reauthorization Bill is a good place to start, but any kind of 
rules or regulations that are put in place need to be actually 
enforced.
    Unfortunately, we have seen what has happened with the FAA 
in terms of the maintenance and the problems going on there. I 
certainly think that enforcement is really key.
    We cannot say that the system is working well now. Ms. 
Hanni would not have the strong support that she has from so 
many people if the system were working well now. So we have to 
figure out where do we go from here.
    I know the airlines are hurting, financially hurting. We 
have seen three airlines go under very recently, and we do not 
see a situation where it is not viable to run an airline in 
this Country. However, that should not be an excuse to squeeze 
everything possible out of the flying public.
    The dissatisfaction with flying, it seems to be at a point 
where we are just supposed to be happy if we get there safely 
no matter what happens to us in between that time. It did not 
used to be that way.
    I think some of the problems that have been talked about 
here, but one thing that I certainly see is a lack of 
information given to people when they are flying. One thing 
that I have mentioned before in hearings, flights being 
canceled for I don't see any reason why the flight was 
canceled.
    Ms. Richardson was talking about information. I have a 
major problem with getting any information even at the airport, 
even standing there at the counter. I have a hard time, and I 
am telling them. Standing there at the counter, I am telling 
them this is what is showing up on the board, and they don't 
even know what is going on with that flight.
    These are just some of the problems that we are having 
here, and I think a lot of it comes, yes, from problems that 
the airlines are having financially, but that should not be an 
excuse.
    Running down on time here, let me get to my question. 
Something that is being talked about right now to help--it was 
put out there as a way to solve some of the financial problems 
right now--is for airlines to merge.
    However, I have some concerns over airline mergers, not 
that they shouldn't be done but we have had experience in the 
last couple of years with an airline merger that there have 
been some problems with it. You have employees at the same 
airport working in the same merged airlines under different 
work rules, receiving different wages and benefits, a lot of 
stories about this causing problems and more hassles for 
passengers that have resulted.
    I sent a letter with Mr. LaTourette and 46 of our 
colleagues to Attorney General Mukasey and Secretary Peters, 
saying we need to take a look. They need to take a look very 
closely at these mergers and the impact it will have on the 
flying public.
    I wanted to ask, first of all, Inspector General Scovel and 
Ms. Hanni if they have any knowledge or opinions or what they 
believe the impact of airline mergers will have on the flying 
public. So, first, Mr. Scovel.
    Mr. Scovel. Mr. Lipinski, I don't have any data on that 
point, and I won't engage in speculation. My staff would 
probably kill me. But if you were to refer a question to us, we 
would certainly give that a stab.
    Mr. Lipinski. Okay, I will do that.
    Ms. Hanni?
    Ms. Hanni. I will certainly weigh in. We are not favorable 
towards the merger being discussed. We are very concerned both 
for the employees of the airlines which--I don't know if it was 
Ms. Richardson--someone said something about an employee bill 
of rights.
    Not only our members are just the flying public but also 
many of the employees of the airlines have become our members 
because they feel under-represented. They are afraid. They have 
no one to turn to.
    We know that the flying public's service will go downhill 
if there are mergers. Fares will go up. There won't be as much 
competition. You probably won't see as many flights to 
different places. These are just our thoughts.
    We have been joined by the International Aviation 
Machinists Union. They have joined us unequivocally regarding 
passenger rights. They are on the ground, dealing with us when 
we come off the planes.
    We have deeply discussed the merger issue, and I think that 
I speak for the whole coalition when I say that 99 percent of 
us would say that we are not favorable towards it. We really 
believe it is going to create a problem for passengers.
    Mr. Gribbin. Congressman Lipinski, from the airport point 
of view, in terms of the general subject of mergers, we are 
agnostic basically.
    Whenever mergers are discussed, specific ones, the folks 
who get the most nervous are smaller airports, and I know that 
happened the last time around when Delta and U.S. Airways were 
talking about it. Some of the smaller airports were getting 
nervous, and both airlines are reaching out to them.
    Delays and congestion affect smaller airports more than the 
larger ones. To begin with, you probably pay more to fly out of 
those cities. Your flight is more likely to be canceled if you 
fly out of one of those cities. It is harder to re-book because 
there are fewer seats.
    What they really worry about is if you have competitive air 
service from a smaller community and carriers merge or even 
with the delays and congestion, flights get canceled, will you 
have an alternative?
    What we are finding is that from a lot of the smaller 
cities, even now, even without mergers there are delays and 
congestion. Congressman Petri is not here any longer, but in 
Madison, Wisconsin you can take a bus from O'Hare to Madison 
most days quicker than you can fly and there is a bus company 
that is doing a nice business.
    But certainly delays and congestion really hurt small 
communities more than most. Whenever there is talk of mergers, 
our smaller airports get concerned about that.
    It doesn't mean that we would be opposed or in favor of a 
merger. We probably wouldn't weigh in on a particular merger, 
but there is that concern there that needs to be looked at.
    Mr. Lipinski. Thank you.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from Oregon, Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Mr. Scovel, on your testimony here when you talked about 
the parameters that are used for targeting chronically delayed 
or canceled flights, it seems that you make an interesting 
point: It all depends upon the definition and apparently our 
current definition is very narrow, 15 minutes late 70 percent 
of the time. So there is only 200 chronically delayed flights.
    If we go to 30 minutes late, 50 percent of the time--which 
I think most consumers would say that is pretty crappy 
service--there is 2,789.
    Then 30 minutes late, 40 percent of the time, 5,369 
regularly scheduled flights were chronically delayed?
    Mr. Scovel. Those were our findings, yes, sir.
    Mr. DeFazio. That is out of how many flights that were 
regularly scheduled?
    Mr. Scovel. I don't have that number before me.
    Mr. DeFazio. But it is a pretty significant subsegment here 
of that number.
    So are you aware of any action that is being taken? Is DOT 
taking action to expand that definition?
    Mr. Scovel. We have recommended that, sir, but I will defer 
to Mr. Gribbin. I am not currently aware of a move to expand 
that definition.
    Mr. DeFazio. Are you considering expanding that definition, 
Mr. Gribbin?
    Mr. Gribbin. Yes. As part of our rulemaking, we have had 
conversations of how that definition ought to be changed. We 
ought to clarify that.
    Mr. DeFazio. Which rulemaking? Is that the proposed 
rulemaking where you are proposing a rule that you might 
propose rules that couldn't get done before this Administration 
leaves office or is it part of a hard rulemaking that is 
actually in form and being proposed?
    Mr. Gribbin. It would be the ANPRM, the former.
    Mr. DeFazio. It is the former. So you are proposing that 
you might propose a rule, and you are asking people to comment. 
You don't think this a problem.
    I see you have a background in philosophy. That is great. I 
studied in economics. Did you ever read the Wealth of Nations?
    Mr. Gribbin. Yes, sir.
    Mr. DeFazio. Do you remember the discussion about the 
information that if we are going to have market-based systems, 
that consumers need, and do you think that this information is 
adequate for consumers? It clearly isn't, is it not?
    It is an opaque system. Where could I go to get the 
information that my flight is chronically delayed today?
    Mr. Gribbin. Well, we have proposed under the ANPRM that 
that information would be posted at point of purchase for the 
consumer for the very reason that you point out.
    Mr. DeFazio. But you propose that you might propose it.
    Mr. Gribbin. It is an ANPRM which means it is a traditional 
way of rulemaking where we go out and solicit comments.
    Mr. DeFazio. Right, but you don't see it as a problem now 
that we could just skip that step and go to the proposed 
rulemaking?
    I mean because you are saying we are going to solve these 
problems with market-based forces, but if the consumers don't 
have the information they need for what you have identified as 
their greatest frustration with aviation, then they can't. 
Market forces aren't going to work for the consumers.
    Now you want to use market forces to deal with the 
airports. How about consumers?
    Mr. Gribbin. I think that that is right. You don't want to 
conflict those two issues.
    Mr. DeFazio. I don't want to conflict them. I would like 
consumers to have information they need.
    Mr. Gribbin. Right. If we have congestion pricing in place, 
you are likely to get far fewer chronically delayed flights.
    I would also like to point out and make sure that everyone 
understands that the 15 minutes 70 percent of the time, that is 
a per se chronically delayed flight. What we need to be careful 
of is that some of these flights are delayed due to no fault of 
the airlines, such as weather delays.
    Mr. DeFazio. Well, would you say no fault of the airline?
    Let me give you an example. I live in Eugene, Oregon. 
United uses something called SkyWorst as a vendor who flies 
down to San Francisco. United is bringing in more regional jets 
now with the same number of people as before 9/11, but they 
have sopped up a lot of airport capacity.
    So, on a predictable day which happens about half the time 
in San Francisco, where they have limited operations, the first 
thing they do is cancel all the regional jets from Eugene, 
Oregon, and everybody sits there, and they wait, and they wait, 
and they wait.
    The last time I had to make a flight, I had to fly to 
Portland to fly down there because that was the real United 
versus the fake United, and they fly those planes. United 
doesn't cancel the real ones. They cancel the fake ones because 
they control that.
    Now this is not very obvious to consumers, is it?
    Mr. Gribbin. It is not. That is why if San Francisco had 
the ability to congestion price, what you would do is you would 
move, as you deem, the fake United flights out of those key 
slots.
    Mr. DeFazio. But why do we fear regulation so much?
    You say it is inefficient. I don't think you get a total 
grasp. Let me quote something from here that I think is 
inaccurate: ``cheapest flights to be are those departing or 
arriving at the last desirable times.''
    I spend a lot of time, when I am not flying on official 
business, shopping, using those various search engines. I would 
say that is not a true statement.
    The true statement is they will segment my day into five 
arrivals and departures through four different airports, and 
those are the cheapest flights I could get. It doesn't have 
anything to do with what time I originate. It is how many 
places they make me go in order to get the one place I could 
have gone to in the old days directly.
    So I am questioning first off, given your background with 
roads and not aviation, your understanding of this. I hate to 
do it, but I have to agree with Mr. May here on this issue.
    Mr. Gribbin. I am glad I brought you together.
    Mr. DeFazio. Let's think about I will give you two things 
to think about.
    Hub and spoke and how that is going to work when they are 
flying RJs in from somewhere to catch the only flight that is 
departing, which they can get the extra money for because it is 
going from San Francisco to Dulles or New York, but other 
people have to get there on the little planes. There are only 
60 people on there. We are going to charge, I assume, not by 
passenger but per slot.
    So, therefore, you are going to have a much higher fee per 
passenger on the 60-person flights. It sounds to me like small 
communities could be disadvantaged.
    You do have sort of a footnote at the end, although you 
mention general aviation. I think you mean commercial aviation 
access to these airports.
    Then the second one, how about this? The dollar is headed 
toward a rupee pretty quickly, and so if we are going to 
allocate the slots at our international airports on a market 
basis, it sounds to me like the international airlines, they 
will say: Oh, it doesn't cost us anything to land there. We can 
pay in rupees.
    Suddenly, they are sopping up all our capacity. Then what 
happens to the domestic carriers that need to use those 
airports?
    I don't think you have thought this all the way through. I 
never like the hub and spoke system, but we got it. Some 
airlines are trying to get us away from it.
    What you are talking about would be so disruptive of the 
existing system. I don't think you have through the unintended 
effects both consumers at mid-size and small airports and hub 
and spoke or the potential for inordinate penetration by 
foreign carriers and dominance of the market by foreign 
carriers, but that would be market-based. So I guess it would 
be okay.
    Mr. Gribbin. Actually, we have, and Mr. May participated in 
this. We spent nine weeks, about five hours a day over the 
course of nine weeks, talking through all these issues. So we 
have examined these in great detail. We understand that there 
are concerns out there.
    Mr. DeFazio. The people who are in the industry came to a 
different conclusion than the people who aren't in the 
industry.
    Mr. Gribbin. No, because I think you would say the airports 
are in the industry. The airlines came to a different 
conclusion than the Department and some of the airports. Now, 
to be fair, the Port Authority is an airport and also opposes 
any type of pricing.
    But, in essence, what we are saying is that right now the 
airlines are charging additional for meals. They are charging 
additional for baggage. They are charging additional for leg 
room, all of which is because that is what consumers demand.
    Mr. DeFazio. No. They are doing that because they are 
desperate to not reflect in their published fare how much they 
are going to charge you to go some place. They figure: I got 
you on the phone. I won't tell you about these extra addeds, 
and you will find out when you check in. Actually, your $200 
ticket is now $400.
    Oh, you want to check a bag? Well, that will be $500.
    Oh, you actually want a seat? Oh, well, that is going to be 
another $150.
    I mean we did have that proposal that the new Airbus could 
have standing room although they quickly back away from that.
    Mr. Gribbin. That was probably wise. But all we are saying 
is I think consumers will pay additional for flights that 
arrive on time.
    Mr. DeFazio. Think of the problem of the 60 people on the 
RJ from Eugene, trying to go San Francisco, and they are 
competing with a 747 coming in from Asia. Now you are going to 
say those 60 people are going to have to carry as much of an 
additional fee as 500 Asians who are rolling in RMBs or yen, 
which are worth so much more than the dollar. How is that going 
to work out for those 60 people?
    They are going to have to pay about 50 bucks each where 
those other people are going to pay a buck each.
    Mr. Gribbin. Actually, what would happen is you would 
probably have the 60 people be combined with another 60 people, 
and they would fly in as 120 people, but at least this time----
    Mr. DeFazio. No. It is one little plane coming from a town 
that can only support 60 people.
    Mr. Gribbin. Well, no. But going with your point, they are 
going to get canceled now anyway, right?
    Mr. DeFazio. That is only because of the very lame way 
United Airlines runs things. In fact, real United has come back 
because we had the Olympic trials, and I am trying to convince 
them since they have reduced the load on San Francisco Airport 
to continue to provide regular service through the next winter. 
So it will be more dependable
    And I did point out, and I did get the on-time, and it was 
totally unacceptable for SkyWorst. But that is also 
discriminating for their own profits versus their vendor's 
profits. So that is a very complicated market.
    Mr. Gribbin. But what you pointed out as a market failure 
is exactly what we are trying to address.
    Mr. DeFazio. More market? I have to say your faith in 
markets, given what has gone on Wall Street in the last couple 
of months, is just sort of endearing to me, but I have to tell 
you I am ready for some really smart regulation.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman.
    Mr. Gribbin, the DOT's Passenger Rights Task Force, when 
did DOT convene the Passenger Rights Task Force?
    Mr. Gribbin. That kicked off this year. Well, the next 
meeting is the 29th of this month, and then they will wrap up 
their work by the end of this year.
    Mr. Costello. Okay. When was their first meeting? What was 
the date of their first meeting?
    Mr. Gribbin. February 26th.
    Mr. Costello. February 26th.
    Ms. Hanni, you are a member of the DOT's Passenger Rights 
Task Force, correct?
    Ms. Hanni. I am.
    Mr. Costello. You attended that first meeting?
    Ms. Hanni. Yes, I did. I spoke at that first meeting.
    Mr. Costello. How do you see your role on that task force 
and the role of the task force in general?
    Ms. Hanni. Mostly information gathering so far, we have 
had. I am co-chairing a committee with Jim Crites from Dallas-
Fort Worth, and we have had one conference call. There are a 
lot of people on the call that simply don't say anything. They 
don't speak, and so I am assuming that they are consenting to 
everything that Jim and I are proposing, but that is a big 
presumption.
    The way I am looking at it is that it is very good to keep 
the conversation alive. It is good that we are all talking 
about. I have spoken directly with D.J., had this same 
conversation, where there is no guarantee that out of this task 
force that there is going to be any enforceable deplanement 
that goes into the Advanced Notice of the Proposed Rulemaking, 
as Mr. DeFazio so effectively pointed out, or essential needs. 
I think those are the two things that are critically missing.
    Then if you also look at the parameters for chronically 
delayed flights, I believe it had to be a commercial flight 
that had 45 flights in a 3-month period. That narrows the scope 
so much that so many flights are excluded.
    We turned in our comments, and most of the comments came 
from our coalition as well as Senators Boxer and Snowe and 
other people that chimed in. Very few people disagreed 
regarding comments. The overwhelming response was the same.
    Mr. Costello. I understand there are regional forums being 
held. Are you participating in those?
    Ms. Hanni. I am.
    Mr. Costello. Can you tell us, have you participated in a 
regional forum up to this point?
    Ms. Hanni. The first one is next week. So I will go home to 
Napa, and then I will fly to Miami.
    As far as I know, we have had one conference call. So my 
awareness of it is that there will be three panels. I am on the 
third panel.
    It is more of an operational issue. It is not really a 
forum for consumers to come complain. It is more of the 
airlines, mostly,--I am the only consumer advocate--and 
airports and other experts in the field, answering as to why 
operationally these delays happen and why it is that it is so 
difficult for them to return you to a gate.
    That is my perception so far.
    Mr. Costello. Your organization has a hot line, an 800 
phone number for passengers, people who have complaints to 
call.
    Ms. Hanni. Yes.
    Mr. Costello. How many calls do you get in a given period? 
You must have statistics.
    Ms. Hanni. Our average is 70 calls a day.
    Mr. Costello. Seventy calls a day?
    Ms. Hanni. Yes. Now that goes up at holiday times and down 
during slower travel periods, but the average is 70 a day. The 
first day that we started our hot line, I got 900 calls in 3 
hours.
    Mr. Costello. Do you forward those calls to the Department 
of Transportation, every one of them?
    Ms. Hanni. No, but I could. They don't have a hot line 
where people answer it.
    Mr. Costello. Well, I would suggest that you forward any 
complaints you receive both to the airline and the Department 
of Transportation. But as of right now, you do not report each 
complaint to DOT?
    Ms. Hanni. We encourage each person that calls in. We have 
the DOT complaint line and their address on our web site.
    First, we take care of whatever their immediate need is. 
So, if they are stuck on a plane or if they are in trouble or 
if their eight year old daughter has been told to get off a 
plane without accompaniment or a four year old is stuck out on 
the tarmac and his parents are not with him, we try to deal 
with those types of situations immediately.
    Then we say, what you must do is contact the Department of 
Transportation, CC that you contacted the coalition and ACAP 
also, the Aviation Consumer Action Project, and then also your 
Congressmen and your Senators to let them know, especially 
right now the Senate because we are working our tail feathers 
off to get them to forward the FAA Reauthorization Bill.
    D.J. is aware of the number of calls that we have received. 
I actually took sort of a bold step in a room full of people 
that probably don't like me all that much on this task force, 
and I played seven or eight of our hot line calls for them to 
hear, so that they could get what I get when I pick up the 
phone and I hear somebody say, an 11 year old just passed out. 
We have medical emergencies going on. We have only been out 
here four hours with no air conditioning.
    Whatever it is that we are hearing, so they could kind of 
get the impact. It is not the same for me to share it as it is 
for them to hear someone's frantic call.
    Mr. Costello. The Chair would ask Members if they have 
additional questions.
    Mr. DeFazio.
    Mr. DeFazio. Thanks, Mr. Chairman.
    I would like to go back to something Mr. Scovel said that I 
found a bit shocking when he talked about the advertising abuse 
and he said that apparently you were handed a note by staff 
that.
    Over seven years, you are not aware of any prosecutions in 
that category?
    Mr. Scovel. That is true.
    Mr. Gribbin has updated numbers on that. I wasn't aware of 
specific numbers. However, apparently, within his office, he 
does.
    Mr. DeFazio. Okay. Mr. Gribbin, could you repeat what you 
said?
    It wasn't clear to me when Mr. Gribbin spoke that he was 
talking specifically about prosecutions or whatever we call 
these, violations, that specifically related to that category. 
I thought you were talking more generally about actions that 
have been taken.
    Mr. Gribbin. The category of advertising?
    Mr. DeFazio. Yes.
    Mr. Gribbin. We have had a number of enforcement actions 
against unfair trade practices and deceptive advertising.
    Mr. DeFazio. But relating to scheduling chronically delayed 
flights or more relating to deceptive practices that relate to 
pricing because I know there has always been concerns about 
pricing?
    Mr. Gribbin. Usually it is advertisement of fares that 
don't include taxes.
    Mr. DeFazio. Right.
    Mr. Gribbin. There was an incident where an airline was 
charging for smaller children that could have been on a lap and 
there was a separate fee for that, but that was not advertised.
    So usually the enforcement actions are against an airline 
that is advertising a price and--going back to the example that 
you used--you get to the airport, and the price really is 
something different. That is clearly an unfair practice. It is 
deceptive, and we are very aggressive on that front.
    Mr. DeFazio. But if they have an asterisk saying additional 
fees and charges may apply, see our web site, how is that, like 
for your extra bag?
    Mr. Costello. Mr. DeFazio, I wonder if you would yield.
    Mr. DeFazio. Yes, certainly, Mr. Chairman.
    Mr. Costello. The line of questioning when I asked that 
specific question of Mr. Scovel, I asked him specifically about 
recommendations that he made to the Department of 
Transportation concerning ``deceptive'' practices.
    We were talking about 56 departures within a 15-minute 
window, and I asked the question, trying to find out if we can 
get an answer if, in fact, the Inspector General has 
recommended to the Department of Transportation that they take 
legal action for deceptive practice.
    I would say that that is a deceptive practice. If you have 
more flights scheduled to take off that are impossible to get 
off the ground when they are advertising to depart. So my 
question was: Have you taken any action in that specific 
category, not on pricing and other issues but on advertising 
flights that are to depart when we know that it is impossible 
for that flight to depart on its scheduled advertised time?
    Mr. Gribbin. We have actually done three things along those 
lines in the worst and most congested airports, for example.
    Mr. Costello. But my question specifically is: Have you 
penalized or taken action against an airline like you have for 
pricing for deceptive practices for over-scheduling?
    Mr. Gribbin. What we have done is we have tried to change 
the system under which airlines operate to discourage that kind 
of behavior.
    Mr. Costello. So the answer is no.
    Mr. Gribbin. No.
    Mr. DeFazio. Okay. Thank you.
    Mr. Chairman, thank you. I was maybe going around, but I 
was getting there because I thought when I heard those 
categories proffered that it probably did not specifically 
relate to the deceptive advertising.
    This again, unfortunately, brings me back to my first 
point. We don't really necessarily have to deal with a wacky 
economist who has been dead for well more than 200 years, who 
used to be found walking around Edinburgh in his nightshirt 
with a candle and then they would take him back home and say, 
sit down and write some more, and he is the one on which we are 
basing our regulation of passenger rights in the 21st Century.
    But, again, he did say some good things, and one of the 
things he would say is that in order to have free markets and 
market-based systems, consumers have to have perfect 
information.
    I think in this case, we are making it really clear. They 
aren't getting perfect information. They are getting deceptive 
information, and you are trying to correct the underlying 
problem, but you haven't used your regulatory role to take 
action against these deceptive practices.
    That is correct, right?
    Mr. Gribbin. Actually, we are doing both. We are trying to 
correct. First of all, there is more than Adam Smith that 
supports pricing as a way to alleviate congestion. You would be 
hard pressed to find an economist that does not.
    Mr. DeFazio. Sure, but a lot of people like to depend upon 
the Wealth of Nations and things he said, and I think they all 
pretty much agree that consumers need perfect information or 
near perfect information or at least some good information. In 
this case, they are getting nothing. They are being treated 
like mushrooms.
    Mr. Gribbin. That is exactly why we have proposed, again, 
having the information available. The other problem is there is 
information available to consumers, but it is difficult to 
find.
    Mr. DeFazio. It is very difficult to find. I have cruised 
those web sites, and they don't have all the flights on there 
reliably.
    I mean you can find some flights on some of those web sites 
that analyze departures, but they don't analyze all sites. It 
is not very, very accessible, and I think I am fairly skilled 
at finding information. So it is not.
    Mr. Gribbin. It should be easy for the consumer.
    Mr. DeFazio. But the question would be if they have been 
making recommendations for seven years, you take action in this 
category in this Administration. I know you haven't been there 
seven years. You have been in and out a couple of times, the 
revolving door, but you are there now.
    The question is why haven't you taken action on any one of 
those seven years worth of recommendations on an enforcement 
action on deceptive advertising?
    That is another way of changing behavior, right, and that 
is a market signal to the airline. This is not acceptable. You 
can't schedule 56 flights in a 15-minute segment, and you can't 
tell people they are going to take off then.
    If you do that and they can't and they miss their 
connecting flight, we are going to start whacking you. That is 
another way of changing behavior because we are talking about 
airlines here. Right?
    Mr. Gribbin. Right. Again, we have proposed in our ANPRM, 
which I know you are not particularly fond of, we have proposed 
a whole series of changes.
    Mr. DeFazio. But you are proposing to propose changes which 
you know can't happen before you leave office. Anything you get 
penned, we are going to throw out, I will tell you, because it 
is not going to be any good.
    Mr. Gribbin. You may want to keep this one.
    Mr. DeFazio. I am just saying there are actions that need 
to be taken now, that you could take with your delegated 
authority to change market behavior, deceptive behavior, but 
you are choosing not to use that authority.
    Mr. Gribbin. Well, let's use the example of multiple 
airlines taking off at the same time. We have 35 airlines or 30 
and only 10 can take off. So it is three to one. Which 20 would 
we penalize?
    Mr. DeFazio. I would say since you want to go with a 
market-based system, all of them, and see which one will take 
the fines and which ones won't, and then some of them will move 
their flights around. I don't know.
    You are a regulator. I have a better solution here. In 
terms of regulating, you want to want to use the market.
    But back to the Chairman, when you are talking about that, 
how many flights were involved in the 56 flights in the 15-
minute window?
    Mr. Costello. One airline.
    Mr. DeFazio. Oh, one. Well, in that case, it might work, 
huh?
    [Laughter.]
    Mr. DeFazio. You are telling me multiple, but in this case 
there is one. So couldn't we then use the club on them, change 
their behavior?
    Why are you so loathe to use your lawful powers as a 
regulator?
    We are not going to agree here, and I am not going to get 
anywhere, but let me try this. Should we regulate safety on a 
market basis?
    Certainly, no one would fly a plane that was unsafe because 
if it crashes, it is bad publicity, and then you lose 
passengers and all that stuff. You have to pay higher insurance 
premiums. Who knows? You might even get sued and all this 
stuff.
    So should we delegate safety to the same trash bin that we 
have delegated passenger rights?
    Mr. Gribbin. We haven't delegated passenger rights to a 
trash bin.
    Mr. DeFazio. Well, effectively. Shall we say the black 
hole? All right, trash bin was bad. The black hole.
    Mr. Gribbin. I prefer to disagree with either analogy.
    Again, what we are trying to do on the passenger rights 
side is not applicable to safety. Safety clearly is our number 
one priority. We are not going to allow the market to 
differentiate between planes that are safe and planes that may 
not be safe.
    Mr. DeFazio. Even with the customer service initiative that 
we held a 10-hour hearing on last week where apparently 
airlines became clients or customers to the regulators, and--
unlike passengers who aren't given a web site and 10 options 
when they have a problem with an airline--the airlines were 
given, hand-carried by management personnel, packets that 
outlined the appeals procedure of anything your regulator might 
tell you, you have to do to all sorts of different offices 
including oh, my God, you can always go to the Secretary if you 
need to because we are really concerned if our people are 
trying to regulate you here?
    Mr. Gribbin. I will go back to my point.
    Mr. DeFazio. It is a failure.
    Mr. Gribbin. We are not going to allow the market to 
distinguish between safe and unsafe aircraft. All aircraft will 
be safe.
    Mr. DeFazio. I am glad to hear you say that.
    Mr. Gribbin. There are instances, and Kate and I have 
talked about this. Do you want a Federal regulation that says a 
plane has to turn around after two or three hours?
    Okay, well, what if that plane is second in line?
    What if that plane is an international flight?
    There are circumstances where actually the customers would 
choose not to do that. So if this was a clear black and white, 
easy regulatory matter, that would be one thing. But you have 
dozens of airline and hundreds of airports and millions of 
passengers.
    Mr. DeFazio. If I could, but what you have chosen to do is 
say, airlines voluntarily might adopt procedures to deal with 
passengers who are unduly delayed according to their own 
operations capabilities. Okay, that is better than nothing.
    If they do adopt it, they must audit it.
    If they do adopt it optionally, they have to audit and you 
can oversee the audits.
    But if they don't adopt it, then there is nothing. They 
don't have to, do they?
    Mr. Gribbin. They have to adopt it. They all have to have 
plans.
    Mr. DeFazio. But a plan with no parameters.
    Ms. Hanni. But with no oversight out.
    Mr. Gribbin. No. There would be oversight.
    Ms. Hanni. By the DOT.
    Mr. Gribbin. They would all have to propose plans. They 
would all have to audit the plans.
    Mr. DeFazio. They would propose a plan that you would 
review for adequacy or they would just have to have a plan?
    Mr. Gribbin. They have to have a plan and they have to 
disclose to the public what that plan is.
    Ms. Hanni. But the ANPRM explicitly said there would be no 
DOT approval of those plans.
    Mr. Gribbin. Correct.
    Ms. Hanni. No oversight by the DOT of those plans.
    Mr. Gribbin. Right.
    Ms. Hanni. It would be whatever plan they present with no 
consequences.
    Mr. Gribbin. It is their plan.
    Mr. DeFazio. But it would be market-based because you 
wouldn't choose to fly on that airline because you would go to 
their web site and find buried somewhere what their policy is 
when you are stuck on the plane for five hours.
    Then you would say, I have to go check out the other 
airline. Oh, only four. Maybe I will go with them.
    Ms. Hanni. If you are lucky enough to have a computer.
    Mr. DeFazio. Then you would go to the other web site to 
find out how chronically delayed they are, but that doesn't 
exist, so you wouldn't know.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair hates to disturb this discussion 
going on here, but we have votes on the floor.
    Let me comment, Mr. Gribbin, that the difference between 
what DOT is doing regarding a plan and so on is much different 
than the legislation that we passed.
    Mr. Gribbin. That is correct.
    Mr. Costello. It, in fact, would be in law that the 
Secretary would have to approve the emergency contingency plans 
and would have to enforce those plans and to take action, 
assess penalties when there are violations. There is a huge 
difference between what you are proposing to do and what the 
legislation, in fact, does if, in fact, we can get it passed 
out of the Senate.
    We will have some additional questions for you that we will 
be submitting that we would expect you to respond to.
    We appreciate your testimony here today, and that concludes 
this Subcommittee's hearing today.
    [Whereupon, at 4:34 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 41946.008
    
    [GRAPHIC] [TIFF OMITTED] 41946.009
    
    [GRAPHIC] [TIFF OMITTED] 41946.010
    
    [GRAPHIC] [TIFF OMITTED] 41946.011
    
    [GRAPHIC] [TIFF OMITTED] 41946.012
    
    [GRAPHIC] [TIFF OMITTED] 41946.013
    
    [GRAPHIC] [TIFF OMITTED] 41946.014
    
    [GRAPHIC] [TIFF OMITTED] 41946.015
    
    [GRAPHIC] [TIFF OMITTED] 41946.016
    
    [GRAPHIC] [TIFF OMITTED] 41946.017
    
    [GRAPHIC] [TIFF OMITTED] 41946.018
    
    [GRAPHIC] [TIFF OMITTED] 41946.019
    
    [GRAPHIC] [TIFF OMITTED] 41946.020
    
    [GRAPHIC] [TIFF OMITTED] 41946.021
    
    [GRAPHIC] [TIFF OMITTED] 41946.022
    
    [GRAPHIC] [TIFF OMITTED] 41946.023
    
    [GRAPHIC] [TIFF OMITTED] 41946.024
    
    [GRAPHIC] [TIFF OMITTED] 41946.025
    
    [GRAPHIC] [TIFF OMITTED] 41946.026
    
    [GRAPHIC] [TIFF OMITTED] 41946.027
    
    [GRAPHIC] [TIFF OMITTED] 41946.028
    
    [GRAPHIC] [TIFF OMITTED] 41946.029
    
    [GRAPHIC] [TIFF OMITTED] 41946.030
    
    [GRAPHIC] [TIFF OMITTED] 41946.031
    
    [GRAPHIC] [TIFF OMITTED] 41946.032
    
    [GRAPHIC] [TIFF OMITTED] 41946.033
    
    [GRAPHIC] [TIFF OMITTED] 41946.034
    
    [GRAPHIC] [TIFF OMITTED] 41946.035
    
    [GRAPHIC] [TIFF OMITTED] 41946.036
    
    [GRAPHIC] [TIFF OMITTED] 41946.037
    
    [GRAPHIC] [TIFF OMITTED] 41946.038
    
    [GRAPHIC] [TIFF OMITTED] 41946.039
    
    [GRAPHIC] [TIFF OMITTED] 41946.040
    
    [GRAPHIC] [TIFF OMITTED] 41946.041
    
    [GRAPHIC] [TIFF OMITTED] 41946.042
    
    [GRAPHIC] [TIFF OMITTED] 41946.043
    
    [GRAPHIC] [TIFF OMITTED] 41946.044
    
    [GRAPHIC] [TIFF OMITTED] 41946.045
    
    [GRAPHIC] [TIFF OMITTED] 41946.046
    
    [GRAPHIC] [TIFF OMITTED] 41946.047
    
    [GRAPHIC] [TIFF OMITTED] 41946.048
    
    [GRAPHIC] [TIFF OMITTED] 41946.049
    
    [GRAPHIC] [TIFF OMITTED] 41946.050
    
    [GRAPHIC] [TIFF OMITTED] 41946.051
    
    [GRAPHIC] [TIFF OMITTED] 41946.052
    
    [GRAPHIC] [TIFF OMITTED] 41946.053
    
    [GRAPHIC] [TIFF OMITTED] 41946.054
    
    [GRAPHIC] [TIFF OMITTED] 41946.055
    
    [GRAPHIC] [TIFF OMITTED] 41946.056
    
    [GRAPHIC] [TIFF OMITTED] 41946.057
    
    [GRAPHIC] [TIFF OMITTED] 41946.058
    
    [GRAPHIC] [TIFF OMITTED] 41946.059
    
    [GRAPHIC] [TIFF OMITTED] 41946.060
    
    [GRAPHIC] [TIFF OMITTED] 41946.061
    
    [GRAPHIC] [TIFF OMITTED] 41946.062
    
    [GRAPHIC] [TIFF OMITTED] 41946.063
    
    [GRAPHIC] [TIFF OMITTED] 41946.064
    
    [GRAPHIC] [TIFF OMITTED] 41946.065
    
    [GRAPHIC] [TIFF OMITTED] 41946.066
    
    [GRAPHIC] [TIFF OMITTED] 41946.067
    
    [GRAPHIC] [TIFF OMITTED] 41946.068
    
    [GRAPHIC] [TIFF OMITTED] 41946.069
    
    [GRAPHIC] [TIFF OMITTED] 41946.070
    
    [GRAPHIC] [TIFF OMITTED] 41946.071
    
    [GRAPHIC] [TIFF OMITTED] 41946.072
    
    [GRAPHIC] [TIFF OMITTED] 41946.073
    
    [GRAPHIC] [TIFF OMITTED] 41946.074
    
    [GRAPHIC] [TIFF OMITTED] 41946.075
    
    [GRAPHIC] [TIFF OMITTED] 41946.076
    
    [GRAPHIC] [TIFF OMITTED] 41946.077
    
    [GRAPHIC] [TIFF OMITTED] 41946.078
    
    [GRAPHIC] [TIFF OMITTED] 41946.079
    
    [GRAPHIC] [TIFF OMITTED] 41946.080
    
    [GRAPHIC] [TIFF OMITTED] 41946.081
    
    [GRAPHIC] [TIFF OMITTED] 41946.082
    
    [GRAPHIC] [TIFF OMITTED] 41946.083
    
    [GRAPHIC] [TIFF OMITTED] 41946.084
    
    [GRAPHIC] [TIFF OMITTED] 41946.085
    
    [GRAPHIC] [TIFF OMITTED] 41946.086
    
    [GRAPHIC] [TIFF OMITTED] 41946.087
    
    [GRAPHIC] [TIFF OMITTED] 41946.088
    
    [GRAPHIC] [TIFF OMITTED] 41946.089
    
    [GRAPHIC] [TIFF OMITTED] 41946.090
    
    [GRAPHIC] [TIFF OMITTED] 41946.091
    
    [GRAPHIC] [TIFF OMITTED] 41946.092
    
    [GRAPHIC] [TIFF OMITTED] 41946.093
    
    [GRAPHIC] [TIFF OMITTED] 41946.094
    
    [GRAPHIC] [TIFF OMITTED] 41946.095
    
    [GRAPHIC] [TIFF OMITTED] 41946.096
    
    [GRAPHIC] [TIFF OMITTED] 41946.097
    
    [GRAPHIC] [TIFF OMITTED] 41946.098
    
    [GRAPHIC] [TIFF OMITTED] 41946.099
    
    [GRAPHIC] [TIFF OMITTED] 41946.100
    
    [GRAPHIC] [TIFF OMITTED] 41946.101
    
    [GRAPHIC] [TIFF OMITTED] 41946.102
    
    [GRAPHIC] [TIFF OMITTED] 41946.103
    
    [GRAPHIC] [TIFF OMITTED] 41946.104
    
    [GRAPHIC] [TIFF OMITTED] 41946.105
    
    [GRAPHIC] [TIFF OMITTED] 41946.106
    
    [GRAPHIC] [TIFF OMITTED] 41946.107
    
    [GRAPHIC] [TIFF OMITTED] 41946.108
    
    [GRAPHIC] [TIFF OMITTED] 41946.109
    
    [GRAPHIC] [TIFF OMITTED] 41946.110
    
    [GRAPHIC] [TIFF OMITTED] 41946.111
    
    [GRAPHIC] [TIFF OMITTED] 41946.112
    
    [GRAPHIC] [TIFF OMITTED] 41946.113
    
    [GRAPHIC] [TIFF OMITTED] 41946.114
    
    [GRAPHIC] [TIFF OMITTED] 41946.115
    
    [GRAPHIC] [TIFF OMITTED] 41946.116
    
    [GRAPHIC] [TIFF OMITTED] 41946.117
    
    [GRAPHIC] [TIFF OMITTED] 41946.118
    
    [GRAPHIC] [TIFF OMITTED] 41946.119
    
    [GRAPHIC] [TIFF OMITTED] 41946.120
    
    [GRAPHIC] [TIFF OMITTED] 41946.121
    
    [GRAPHIC] [TIFF OMITTED] 41946.122
    
    [GRAPHIC] [TIFF OMITTED] 41946.123
    
    [GRAPHIC] [TIFF OMITTED] 41946.124
    
    [GRAPHIC] [TIFF OMITTED] 41946.125
    
    [GRAPHIC] [TIFF OMITTED] 41946.126
    
    [GRAPHIC] [TIFF OMITTED] 41946.127
    
    [GRAPHIC] [TIFF OMITTED] 41946.128
    
    [GRAPHIC] [TIFF OMITTED] 41946.129
    
    [GRAPHIC] [TIFF OMITTED] 41946.130
    
    [GRAPHIC] [TIFF OMITTED] 41946.131
    
    [GRAPHIC] [TIFF OMITTED] 41946.132
    
    [GRAPHIC] [TIFF OMITTED] 41946.133
    
    [GRAPHIC] [TIFF OMITTED] 41946.134
    
    [GRAPHIC] [TIFF OMITTED] 41946.135
    
    [GRAPHIC] [TIFF OMITTED] 41946.136
    
    [GRAPHIC] [TIFF OMITTED] 41946.137
    
    [GRAPHIC] [TIFF OMITTED] 41946.138
    
    [GRAPHIC] [TIFF OMITTED] 41946.139
    
    [GRAPHIC] [TIFF OMITTED] 41946.140
    
    [GRAPHIC] [TIFF OMITTED] 41946.141
    
    [GRAPHIC] [TIFF OMITTED] 41946.142
    
    [GRAPHIC] [TIFF OMITTED] 41946.143
    
    [GRAPHIC] [TIFF OMITTED] 41946.144
    
    [GRAPHIC] [TIFF OMITTED] 41946.145
    
    [GRAPHIC] [TIFF OMITTED] 41946.146
    
    [GRAPHIC] [TIFF OMITTED] 41946.147
    
    [GRAPHIC] [TIFF OMITTED] 41946.148
    
    [GRAPHIC] [TIFF OMITTED] 41946.149
    
    [GRAPHIC] [TIFF OMITTED] 41946.150
    
    [GRAPHIC] [TIFF OMITTED] 41946.151
    
    [GRAPHIC] [TIFF OMITTED] 41946.152
    
    [GRAPHIC] [TIFF OMITTED] 41946.153
    
                                    
</pre></body></html>
